No. 19In the

Supreme Court of the United States
MATTHEW HERRICK,
Petitioner,
v.
GRINDR LLC, KL GRINDR HOLDINGS INC.,
GRINDR HOLDING COMPANY,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Tor Ekeland
Tor Ekeland Law, PLLC
195 Montague Street,
14th Floor
Brooklyn, New York 11201
(718) 737-7264

Carrie A. Goldberg
Counsel of Record
C. A. Goldberg, PLLC
16 Court Street, 33rd Floor
Brooklyn, New York 11241
(646) 666-8908
carrie@cagoldberglaw.com

Counsel for Petitioner

289286

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
(1) Does the Communications Decency Act § 230(c)(1),
which protects interactive computer services from
liability for traditional publication torts when they
publish third party content, prevent well pleaded
causes of action for non-publication torts – such as
product liability, negligence, fraud, and failure to
warn – as a matter of law?
(2) Whether, as the majority of the Federal Appellate
Circuit Courts holds, invocation of the Communications
Decency Act § 230(c)(1) is an affirmative defense and
therefore inappropriate for resolution at the motion
to dismiss stage?

ii
PARTIES TO PROCEEDING
Petitioner is Matthew Herrick. Respondents are
Grindr, LLC, KL Grindr Holdings, Inc., and Grindr
Holding Company.

iii
RELATED CASES
• Matthew Herrick v. Grindr, LLC, et. al., No. 1:17-cv00932, U.S. District Court for the Southern District
of New York. Order entered on January 25, 2018.
• Matthew Herrick v. Grindr, LLC, et. al., No. 18396, U.S. Court of Appeals for the Second Circuit.
Judgment entered May 9, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO PROCEEDING  . . . . . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
Grindr & Herrick  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
The Proceedings in the Southern District
of New York . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
The Proceedings in the Second Circuit Court
of Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
REASONS FOR GRANTING THE PETITION . . . .  17

v
Table of Contents
Page
I.

The Court Should Grant Certiorari to Fix
the Inconsistent Standards Among the
Federal Circuit Courts of Appeals as to
the Scope of CDA § 230(c)(1) . . . . . . . . . . . . . . . . 19

II. The Cour t Should Grant Cer tiorar i
to Clarify that CDA § 230(c)(1) is an
Affirmative Defense . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vi
TABLE OF APPENDICES
Page
A PPENDIX A — SUMMARY ORDER OF
T H E U N I T ED S TAT E S C OU RT OF
APPEALS FOR THE SECOND CIRCUIT,
FILED MARCH 27, 2019 . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B — OPINION AND ORDER of
the UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED JANUARY 25, 2018 . . . . . . 14a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED MAY 9, 2019  . . . . . . . . . . . . . . . . . . . . . . . . 53a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Chicago Lawyers’ Comm. for Civil Rights Under
Law, Inc. v. Craigslist, Inc.,
519 F.3d 666 (7th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 19
City of Chicago v. StubHub!, Inc.,
624 F.3d 363 (7th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 19
Comm’r v. McCoy,
484 U.S. 3 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CYBERsitter, LLC v. Google, Inc.,
905 F. Supp. 2d 1080 (C.D. Cal. 2012) . . . . . . . . . . . . 23
Daniel, et. al. v. Armslist, LLC ,et al.,
No. 2017AP344, 2018 WL 1889123
(Wis. Ct. App., Apr. 19, 2018), review granted,
2018 WI 93, 383 Wis. 2d 627, 918 N.W.2d 642,
and rev’d, 2019 WI 47, 386 Wis. 2d 449,
926 N.W.2d 710  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Doe v. GTE Corp.,
347 F.3d 655 (7th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 22
Doe v. Internet Brands, Inc.,
824 F.3d 846 (9th Cir. 2016) . . . . . . . . . . . . . . 19, 20, 21
Doe v. MySpace, Inc.,
528 F.3d 413 (5th Cir. 2008)  . . . . . . . . . . . . . . . . . . . 20

viii
Cited Authorities
Page
Fair Hous. Council of San Fernando Valley v.
Roommates.Com, LLC,
521 F.3d 1157 (9th Cir. 2008) . . . . . . . . . . . . . . . .  19-20
Fed. Trade Comm’n v Accusearch Inc.,
570 F.3d 1187 (10th Cir. 2009) . . . . . . . . . . . . . . . . . . 21
Green v. Am. Online (AOL),
318 F.3d 465 (3d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 20
Maynard v. Snapchat, Inc.,
346 Ga. App. 131, 816 S.E.2d 77 (2018) . . . . . . . . . . . 22
McDonald v. LG Elecs. USA, Inc.,
219 F. Supp. 3d 533 (D. Md. 2016) . . . . . . . . . . . . . . . 22
Obersdorf v. Amazon,
No. 18-1041, 2019 WL 2849153
(3d Cir. July 3, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Wang v. OCZ Tech. Group Inc.,
276 F.R.D. 618 (N.D. Cal. 2011) . . . . . . . . . . . . . . . . . 23
Statutes and Other Authorities
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ix
Cited Authorities
Page
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1441  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 230(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 230(f)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 230(f)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. App. P. 28(j) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . passim
N.Y. Gen. Bus. Law § 349  . . . . . . . . . . . . . . . . . . . . . . . . 14
N.Y. Gen. Bus. Law § 350  . . . . . . . . . . . . . . . . . . . . . . . . 14
N.Y. Gen. Bus. Law § 350-a . . . . . . . . . . . . . . . . . . . . . . . 14
1 William Blackstone, “Commenta r ies on
the Laws of England” (Oxford ed. 2016)  . . . . . . . . . . 7
Danielle Keats Citron and Benjamin Wittes, “The
Problem Isn’t Just Backpage: Revising Section 230
Immunity” 2 GEO. L. TECH. REV. 453 (2018)  . . . 18
“China’s Kunlun Tech agrees to U.S. Demand to
sell Grindr gay dating app”, by Echo Wang,
Reuters, published May 13, 2019 . . . . . . . . . . . . . . . . . 5

x
Cited Authorities
Page
Nicole Nguyen, “There’s A Simple Fix, But
Gr indr Is Still Exposing The Location
Of Its Users,” BuzzFeed (Sept. 14, 2018) . . . . . . . . . . 4
“U.S. Orders Chinese Firm to Sell Dating App
Grindr Over Blackmail Risk”, by Georgia Wells
and Kate O’Keeffe, published March 27, 2019 . . . . . . 5

1
OPINIONS BELOW
On January 25, 2018 the Honorable Judge Valerie E.
Caproni of the Southern District of New York issued an
Opinion and Order dismissing Matthew Herrick’s claims
against Grindr, LLC, KL Grindr Holdings, Inc., and
Grindr Holding Company (collectively “Grindr”) under
Federal Rule of Civil Procedure 12(b)(6).1
On March 27, 2019, the Second Circuit issued a
Summary Order affirming Judge Caproni’s decision. 2 On
May 9, 2019, the Second Circuit denied Herrick’s motion
for reconsideration en banc. 3
JURISDICTION
The Southern District of New York had jurisdiction
under 28 U.S.C. §§ 1331 and 1332. The Second Circuit
had jurisdiction under 28 U.S.C. § 1291. This Court has
jurisdiction under 28 U.S.C. § 1254(1) following the Second
Circuit’s denial of a motion for reconsideration en banc on
May 9, 2019.
RELEVANT STATUTORY PROVISIONS
The relevant portions of the Communications Decency
Act (“CDA”), 42 U.S.C. § 230(c)(1), provides in relevant
part:
1. Matthew Herrick v. Grindr, LLC, et. al. 306 F. Supp.3d 579
(S.D.N.Y. 2018), Appendix B, 1a -13a.
2. Matthew Herrick v. Grindr, LLC, et. al, 765 Fed. App. 586
(2d Cir. 2019), App. A, 14a – 52a.
3. Dkt. 166, App. C, 53a-54a.

2
No provider or user of an interactive computer
service shall be treated as the publisher or
speaker of any information provided by another
information content provider.
as

CDA § 230(f)(2) defines “interactive computer service”
any information service, system, or access
software provider that provides or enables
computer access by multiple users to a computer
server, including specifically a service or system
that provides access to the Internet and such
systems operated or ser vices offered by
libraries or educational institutions.

as

CDA § 230(f)(3) defines “information content provider”
any person or entity that is responsible, in whole
or in part, for the creation or development of
information provided through the Internet, or
any other interactive computer service.

3
STATEMENT OF THE CASE
Starting in October 2016, Petitioner Matthew Herrick
began receiving uninvited visitors to his home and job.
They said they were there for sex dates arranged through
the gay dating app, Grindr. The unsolicited visitors
showed Herrick a Grindr user profile with Herrick’s
own picture that he hadn’t created. Over the next five
months, the Grindr App directed over 1100 men to Herrick
with pinpoint GPS precision facilitated by its patented
Geolocation targeting system.4 At one point six different
men came to Herrick’s work within a six-minute span.
As many as 16 arrived in a single day. Grindr not only
directed the men to Herrick’s exact location, it displayed
the distance in feet between the unwelcome visitors and
Herrick. 5 This happened without Herrick’s consent, and
despite the fact that he was not an active Grindr user.
Many of the visitors were under the false impression
that Herrick had rape and sado-masochistic fantasies
and were made to believe his protests would be part of
the act. Others thought he had free drugs. Some arrived
ready to assault him after being provoked with racist and
homophobic comments they believed were sent by him.
Others became violent when Herrick told them he hadn’t
solicited sex from them.
4. “Grindr” is used interchangeably in this Petition to refer to
both the Respondents and the Grindr App. The context makes clear
which meaning is being referenced. Where it isn’t clear, we use the
phrase “Grindr App” to distinguish the App from the Respondents.
5. Because this case was dismissed under Federal Rule of
Civil Procedure 12(b)(6), there’s been no fact discovery revealing
how this was possible.

4
The onslaught of visitors was relentless. They would
ring his buzzer at all hours, wait for him when he walked
his dog, follow him into the bathroom during his brunch
shifts, accost him at the gym, and lurk in the stairwell in
his apartment building.
How Grindr could geo-target Herrick’s location
without Herrick’s consent or knowledge is an unresolved
factual question because the District Court dismissed
the case before fact discovery. It’s possible that Grindr
was leaking Herrick’s GPS coordinates because it was
still tracking him even though he wasn’t actively using
the App. Grindr has known for years that its App leaks
geolocation data.6 Or Herrick’s stalker may have exploited
a defect in Grindr’s code, or used widely available and
known Geo-Spoofing software to interact with the App
to target Herrick. The answers to these questions lie
with Grindr, but the lower courts’ rulings denied Herrick
access to this information.
One thing is certain. Grindr was on repeated notice
of the dangers, but took no steps to mitigate the harms
with readily available software or industry standard
safety measures.

6. Fed. R. App. P. 28(j) Letter to Second Circuit Court of
Appeals, Herrick v. Grindr, et al., No. 18-396-CV, Dkt. No. 140, (Sept.
17, 2018) (citing Nicole Nguyen, “There’s A Simple Fix, But Grindr Is
Still Exposing The Location Of Its Users,” BuzzFeed (Sept. 14, 2018),
available at https://www.buzzfeednews.com/article/nicolenguyen/
grindr-location-data-exposed (“The gay dating app Grindr is still
exposing the precise location of its more than 3.6 million active users
although it has long been aware of the issue.”.))

5
Indeed, the United States government recognizes
the dangers of Grindr. Recently the government ordered
Grindr to be sold back to a United States company,
because of national security concerns, after it was sold
to a Chinese entity.7
Suing Grindr was Herrick’s last resort. Herrick had
already made fourteen police reports and obtained a
family court order of protection against his stalker. But
neither the police nor the courts could stop his stalker. It
would take months before Herrick’s stalker was arrested,
well after Herrick sued Grindr.
Herrick and his friends filed roughly fifty reports with
Grindr asking for help. It would have been simple to do.
When Herrick’s stalker targeted Herrick using Grindr’s
competitors, Grindr’s competitors, Jack’d and Scruff,
stopped the stalking as soon as they were put on notice.
The only response Herrick received to his pleas for help
from Grindr were auto-replies and silence.
7. See “China’s Kunlun Tech Agrees to U.S. Demand to sell
Grindr Gay Dating App”, by Echo Wang, Reuters, published May
13, 2019, accessible at “https://www.reuters.com/article/us-grindrm-a-beijingkunlun/chinas-kunlun-tech-agrees-to-u-s-demand-tosell-grindr-gay-dating-app-idUSKCN1SJ28N”; and “U.S. Orders
Chinese Firm to Sell Dating App Grindr Over Blackmail Risk”, by
Georgia Wells and Kate O’Keeffe, published March 27, 2019, The
Wall Street Journal, accessible at https://www.wsj.com/articles/us-orders-chinese-company-to-sell-grindr-app-11553717942, (“U.S.
national-security experts said Chinese government knowledge of
an individual’s usage of Grindr could be used in certain cases to
blackmail U.S. officials and others with security clearances, such as
defense contractors, and force them to provide information or other
support to China.”)

6
It took filing an emergency order to show cause in
New York State Supreme Court to finally get Grindr’s
attention. And even then, Grindr removed the case to
the Southern District of New York and argued it had no
responsibility to help Herrick because it enjoyed near
absolute immunity under the 1996 Communications
Decency Act (“CDA”) § 230(c)(1). Grindr’s refusal to help
Herrick is a direct byproduct of an overbroad reading of
a statute that incentivizes inaction.
Passed in the antediluvian era of the internet,
before GPS tracking smartphones, Google, or Facebook,
CDA § 230(c)(1) was meant to protect the fledgling
internet economy from crippling damage awards from
traditional publication torts such as defamation. The
law was never intended to provide blanket immunity for
internet companies, yet many courts across the country
using outdated, 20th century paradigms, have judicially
legislated the CDA into providing just such blanket
immunity.
They do so primarily three ways: 1) by classifying
every internet company defendant as an “interactive
computer service;” 2) by regarding the subject matter
of all suits as involving a third-party “information
content provider;” and 3) by dismissing the cases on
Federal Rule of Civil Procedure 12(b)(6) motions thereby
inhibiting plaintiffs from gathering basic evidence. This is
problematic because cases involving internet companies
usually involve information asymmetry and complex
questions of computer functionality.
William Blackstone famously commented it’s not
the common law that usually goes wrong, but statutes

7
that act in derogation of the common law. 8 Whereas
the “common law [is] nothing but custom, arising from
the universal agreement of the whole community” and
thus embodies the whole experience of that community,
statutes generally aren’t informed by the experience of
that whole community.9 And thus statutes in derogation of
the common law often lead to unintended consequences the
drafters never foresaw. And when, as has happened with
CDA § 230(c)(1), the courts interpret a statute far beyond
its text and intent, harmful unintended consequences
abound.
Courts are slowly beginning to recognize the harms
arising from their boundless interpretations of CDA
§ 230(c)(1). And as the facts of this case demonstrate, the
time has come for this Court to provide guidance to the
courts below by holding that CDA § 230(c)(1) is limited to
publication torts, isn’t a grant of blanket immunity, and
that the invocation of CDA § 230(c)(1) is an affirmative
defense inappropriate for dismissal under Federal Rule
of Civil Procedure 12(b)(6).
Grindr & Herrick
Around May 2011, Herrick downloaded Grindr and
used it to date local men in New York City for several
years.10 In June 2015, Herrick, then a thirty-year-old New
8. 1 William Blackstone, “Commentaries on the Laws of
England” 13 (Oxford ed. 2016.)
9. Id. at 306.
10. (Am. Compl. at ¶ 46 (S.D.N.Y. Dkt. No. 34); Second Circuit
Joint Appendix (“JA”), at 64 (Second Circuit Dkt. No. 43.)

8
Yorker, began dating JC, a man he met through Grindr.11
Around November 2015, Herrick stopped actively using
Grindr.12
In October 2016, Herrick ended the relationship. JC
then commenced a campaign of non-stop vengeance against
Herrick, including relentlessly impersonating Herrick
on Grindr.13 Exploiting Grindr’s design deficiencies and
apparent inability to exclude abusive users, JC weaponized
Grindr. Grindr then directed over 1,100 strangers to
Herrick’s home and workplace with the algorithmic GPS
precision modern smartphones permit.14 These men
were seeking sex, including sadomasochistic sex and sex
involving violent rape fantasies.15 Grindr algorithmically
selected and directed all these individuals to Herrick via
its patented geolocation and sorting functions.16 Despite
these known dangers, and Grindr’s public declarations
of its commitment to users’ safety, Grindr lacked easily
implemented design features to screen and block known
abusive and dangerous users violating the company’s
terms of service.17

11. (Am. Compl. ¶ 14, 48, JA-56, 65.)
12. (Am. Compl. ¶ 48, JA-65.)
13. (Am. Compl. ¶ 49, JA-65.)
14. (Id.)
15. (Am. Compl. ¶¶ 49-51, 67, JA-65, 70.)
16. (Am. Compl. ¶¶ 52-53, JA-67.)
17. (Am. Compl. ¶¶ 43-44, 49, 52-53, 67, 83-89, JA-64, 65, 70,
73-74.)

9
The impersonating profiles contained images of
Herrick. The profiles contained accurate descriptions
of Herrick, gave his location as Harlem, and falsely
portrayed him as an HIV-positive individual seeking
violent unprotected sex.18 As many as sixteen individuals
per day showed up to Herrick’s home and restaurant
workplace expecting sex.19
Between November 2016 and January 2017, Herrick
reported Grindr’s targeting of him and his stalking
approximately fifty times to Grindr. 20 From January 27,
2017 through March 2017, he and/or his representatives
made fifty more reports, including in the form of cease
and desist legal letters and, as discussed below, in a court
order. 21
Herrick was not safe at home or at work. 22 In the span
of one week in January 2017, two men refused to leave
Herrick’s home and loitered outside for thirty minutes. 23
One day, six different men came to Herrick’s work in
the span of six minutes. 24 The next day, a man followed
Herrick into the bathroom at work. 25 The police were
18. (Am. Compl. ¶¶ 32, 50, JA-59, 65.)
19. (Am. Compl. ¶ 54, JA-67.)
20. (Am. Compl. ¶ 68, JA-70.)
21. (Am. Compl. ¶ 69, JA-70.)
22. (Am. Compl. ¶ 63, JA-69.)
23. (Am. Compl. ¶ 55, JA-67.)
24. (Am. Compl. ¶ 56, JA-67.)
25. (Am. Compl. ¶ 57, JA-68.)

10
called a few days later when a man became so angry about
being turned away that he attacked Herrick’s roommate. 26
One visitor returned after Herrick sent him away, saying
Herrick had direct messaged asking him to come back. 27
Herrick tried everything to stop the unwelcome
visitors. 28 Herrick filed fourteen police reports against
his stalker. 29 When that did not stop the stalker, Herrick
successfully petitioned New York State Family Court
for an Order of Protection against his stalker. 30 But
his stalker, like many in the face of a court order, was
undeterred. Instead, he sent even more strangers to
Herrick for sex. 31 Grindr was the only one that could help,
was on repeated notice, and was uniquely and exclusively
qualified to do so. Yet, Grindr did nothing. 32
With no other options, Herrick sued Grindr in New
York State Supreme Court with the goal of injunctive relief
ordering Grindr to stop its targeting of him.
The Proceedings in the Southern
District of New York
On January 27, 2017, Herrick filed a Summons and
Complaint in New York State Supreme Court, New York
26. (Am. Compl. ¶ 59, JA-68.)
27. (Am. Compl. ¶ 62, JA-68-69.)
28. (Am. Compl. ¶¶ 68-70, 73, 81, JA-70, 71, 72.)
29. (Am. Compl. ¶ 73, JA-71.)
30. (Id.)
31. (Am. Compl. ¶¶ 55-60, JA-67-68.)
32. (Am. Compl. ¶¶ 71, 82, JA-71, 73.)

11
County, in the matter of Matthew Herrick v. Grindr, LLC,
Index No. 150903/17 by Order to Show Cause, seeking a
preliminary injunction and temporary restraining order
(“TRO”). Justice Kathryn Freed granted the ex parte TRO,
ordering Grindr to “immediately disable all impersonating
profiles created under [Herrick]’s name or with identifying
information relating to [Herrick], [Herrick]’s photograph,
address, phone number, email account or place of work,
including but not limited to all impersonating accounts
under the control of [his stalker].” 33
On February 8, 2017, Grindr filed a Notice of Removal
under 28 U.S.C. § 1441, et seq. removing the matter to the
Southern District of New York. 34
On February 15, 2017, Herrick applied for an extension
on the TRO which expired as a matter of law because of
the removal. 35 On February 17, 2017, Grindr opposed that
application. 36 On February 22, 2017, the District Court
held a hearing on the TRO extension. 37
At the hearing, Grindr’s counsel argued there was
nothing they could do – or were obligated to do. Grindr
admitted their knowledge of Herrick’s targeting but said it
didn’t matter. 38 They said their client had no responsibility
to Herrick – or anyone else – because the CDA immunized
33. (JA-41-42.)
34. (Dist. Dkt. 1.)
35. (Dist. Dkt. 11.)
36. (Dist. Dkt. 13.)
37. (Dist. Dkt. 20.)
38. See Transcript of Oral Argument before Judge Caproni,
(JA 150) (February 22, 2017):

12
them from all liability associated with the use of their
product.
Grindr made this argument despite readily available,
widely used software and methods such as VPN blocking,
photo-hashing, and industry standard user verification
that could have protected Herrick and stopped the stream
of strangers. Although Grindr’s business model depends
on sophisticated techniques to scan, sort, and analyze user
data to sell to advertisers (including HIV status), and its
patented geolocation technology to match and direct users
to one another, Grindr claimed it lacked the rudimentary
technical capability to identify and block accounts.
On February 24, 2017, the District Court denied
Herrick’s application to extend the TRO. 39
On April 12, 2017, Herrick filed his A mended
Complaint adding new claims, including product liability
claims and adding Grindr’s holding companies – KL
Grindr Holdings, Inc. and Grindr Holding Company –
as defendants.40 The Amended Complaint pleaded the
following causes of action:

“The Court: You are saying that [Grindr] only [has] the ability
to [comply with the TRO] based on the email address associated with
that account so you can just jump to a different e-mail account and
continue bad behavior?
Mr. Waxman: That’s right, your Honor.”

39. (Dist. Dkt. 21, JA-43-52.)
40. (JA-53-95.)

13
(1) Product Liability for Defective Design of Grindr41
(2) Product Liability for Defect in Manufacture of
Grindr by failing to incorporate widely used, proven, and
common safety software42
(3) Product Liability for Defect in Warning because
Grindr knew, but failed to warn, that Grindr has been and
can be used as a stalking weapon43
(4) Negligent Design because Grindr knew, or should
have known, that Grindr created an unreasonable risk of
injury to Herrick and its users44
(5) Negligent Failure to Warn or to Provide Adequate
Instruction because Grindr placed Grindr into the stream
of commerce without warning that it facilitated stalking45
(6) Negligence for Grindr’s failure to meet its duty
and the industry’s standard of care in relation to product
safety and incident response46
(7) Copyright Infringement 47
41. (Am. Compl. at ¶¶ 100-07, JA-77.)
42. (Am. Compl. at ¶¶ 108-15, JA-78.)
43. (Am. Compl. at ¶¶ 116-20, JA-79.)
44. (Am. Compl. at ¶¶ 121-26, JA-80-81.)
45. (Am. Compl. at ¶¶ 127-30, JA-81-82.)
46. (Am. Compl. at ¶¶ 131-45, JA-82-83.)
47. Petitioner has dropped his copyright claim.

14
(8) Promissory Estoppel because Herrick relied on
Grindr’s Terms of Service (“ToS”), privacy representations,
and Grindr’s assurances that it could and would respond
to reports of abuse48
(9) Fraud because Grindr knew the misrepresentations
about its commitment to safety in the ToS, which Herrick
reasonably relied upon, were false49
(10) Deceptive Business Practices under N.Y. Gen.
Bus. Law § 349 because Grindr made false and misleading
statements about its commitment to privacy and safety to
attract customers50
(11) False Advertising in violation of N.Y. Gen. Bus.
Law. §§ 350 & 350-a because Grindr falsely advertised
the nature, efficacy, and safety of Grindr51
(12) Intentional Infliction of Emotional Distress
because Grindr repeatedly ignored Herrick’s desperate
pleas for help in the face of the weaponization of Grindr
against him by a dangerous and criminal stalker52
(13) Negligent Inf liction of Emotional Distress
because Grindr breached its duty of care by ignoring

48. (Am. Compl. at ¶¶ 156-60, JA-86.)
49. (Am. Compl. at ¶¶ 161-66, JA-86-87.)
50. (Am. Compl. at ¶¶ 167-75, JA-87-88.)
51. (Am. Compl. at ¶¶ 176-87, JA-88-90.)
52. (Am. Compl. at ¶¶ 188-91, JA-90-91.)

15
Herrick’s repeated requests for help after a dangerous
and criminal stalker weaponized Grindr against him53 and
(14) Negligent Misrepresentation because Herrick
relied on Grindr’s safety representations that Grindr did
not intend to enforce. 54
On April 21, 2017, Grindr, LLC filed a motion to
dismiss the Amended Complaint. 55
On May 24, 2017, KL Grindr Holdings, Inc. and Grindr
Holding Company filed motions to dismiss the Amended
Complaint. 56
On June 14, 2017, Herrick filed a memorandum of
law opposing the motions. 57 The parties’ requests for oral
argument were denied.
On January 25, 2018, the District Court issued an
order granting Defendants’ motions to dismiss with
prejudice on all claims except Herrick’s copyright
infringement claim, under Rule 12(b)(6). 58 On February
14, 2018, the court issued a subsequent order dismissing
the copyright claim with prejudice. 59
53. (Am. Compl. at ¶¶ 191-205, JA-91-92.)
54. (Am. Compl. at ¶¶ 206-13, JA-92-94.)
55. (Dist. Dkt. 41, JA-96-97.)
56. (Dist. Dkt. 47 & 50, JA-181-82, 185-86.)
57. (Dist. Dkt. 54.)
58. (Dist. Dkt. 63, JA-190-218.)
59. (Dist. Dkt. 66.)

16
The Proceedings in the Second
Circuit Court of Appeals
On February 9, 2018 Herrick filed a Notice of Appeal.
On January 7, 2019 oral arguments were held. Given the
importance of the case, seven Amici Curiae briefs were
filed by the following organizations and individuals around
the country
For Herrick:
1) Sanctuary for Families, Cyber Sexual
Abuse Task Force, Day One, Domestic
Violence Legal Empowerment and Appeals
Project, Her Justice, Legal Momentum, My
Sister’s Place, New York Legal Assistance
Group, and Safe Horizon
2) Electronic Privacy Information Center
(EPIC)
3) Break the Cycle, National Association of
Women Lawyers, National Network to End
Domestic Violence, Laura’s House, Legal
Aid Society of Orange County, and Public
Law Center
4) Consumer Watchdog
For Grindr:
1) Computer and Communications Industry
Association, Match Group, Inc., and Indeed,
Inc.

17
2) Paul Alan Levy
3) Electronic Frontier Foundation and Center
for Democracy and Technology
On March 27, 2019, the United States Court of
Appeals for the Second Circuit issued a “Summary
Order” affirming the district court’s decision to dismiss
the complaint.60
On April 11, 2019, Herrick filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.61
On May 9, 2019, that petition was denied.62
REASONS FOR GRANTING THE PETITION
This Court has never ruled on the proper scope of
the Communications Decency Act § 230(c)(1). As this case
demonstrates, in 2019 this is a matter of life and death
for victims of stalking targeted by computer technologies
with functionalities unimagined when Congress passed
CDA § 230(c)(1) in 1996. Congress passed CDA § 230(c)(1)
to protect interactive computer services from liability for
traditional publication torts arising from passive thirdparty content posted on bulletin boards and websites.
GPS-tracking Smartphones, Google, and Facebook did
not exist when Congress passed CDA § 230(c)(1). Yet since
its passage, the lower courts have judicially legislated the
60. Matthew Herrick v. Grindr, LLC, et. al, 765 Fed. Appx.
586 (2d Cir. 2019), Appendix A, 13a.
61. Dkt. 161.
62. Dkt. 166, Appendix C, 53a-54a.

18
scope of CDA § 230(c)(1) far beyond its text and intent into
a near absolute immunity for internet companies.63 This is
part of the reason the question of CDA § 230(c)(1)’s scope
is a crucial component of our society’s current debate
about the responsibility that internet companies have to
our society for the harm their technologies propagate.
Unfortunately, this debate is muddied by the fact that
the federal and state court decisions in this country lack
clarity and are often contradictory as to CDA § 230(c)
(1)’s proper scope. This lack of conceptual clarity has led
many courts to create an almost absolute immunity for
internet companies for their tortious conduct even though
CDA § 230(c)(1) is limited by its text and congressional
intent to publication torts. Courts do this, as the lower
courts did in this case, by making everything an internet
company does simply a question of the publication of thirdparty content while simultaneously failing to state a clear
and coherent standard for differentiating between the
publication of third-party content and tortious conduct by
the internet company. Because there is no clear standard
both the Federal Circuits and the state courts have taken
divergent positions on the CDA’s scope.
The particular fact intensive nature of the CDA
§ 230(c)(1) eligibility inquiry, due to the complexity of
modern computer functionality, is another reason this
Court should grant certiorari in order to make clear that
the invocation of CDA § 230(c)(1) is an affirmative defense.
63. Danielle Keats Citron and Benjamin Wittes, “The Problem
Isn’t Just Backpage: Revising Section 230 Immunity” 2 GEO. L.
TECH. REV. 453, 460 (2018) (“[T]he broad construction of CDA’s
immunity provision adopted by the courts has produced an immunity
from liability far more sweeping than anything the law’s words,
context, and history support.”)

19
I.

The Court Should Grant Certiorari to Fix the
Inconsistent Standards Among the Federal
Circuit Courts of Appeals as to the Scope of CDA
§ 230(c)(1)

Courts apply conflicting ad hoc approaches to the
scope of the CDA § 230(c)(1). For instance, the Ninth
Circuit Court of Appeals has allowed a failure to warn
claim similar to Herrick’s to proceed whereas the Second
Circuit in this case did not.64 As the Seventh Circuit has
noted, CDA § 230(c)(1) only limits liability related to the
publication of third-party content by interactive computer
services and isn’t a blanket grant of immunity for internet
companies. Yet, courts continue to apply the CDA in
blanket fashion.65
64. Although this petition is from an unpublished summary
order, this Court has granted certiorari in cases involving summary
orders and should do so here. See, e.g., Comm’r v. McCoy, 484 U.S.
3, 7 (1987) (stating “[w]e note in passing that the fact that the Court
of Appeals’ order under challenge here is unpublished carries no
weight in our decision to review the case.”)
65. See, City of Chicago v. StubHub!, Inc., 624 F.3d 363, 366
(7th Cir. 2010) (Easterbrook, C.J.) (“[CDA § 230(c)(1)] limits who
may be called the publisher of information that appears online. That
might matter to liability for defamation, obscenity, or copyright
infringement. But Chicago’s amusement tax does not depend on
who ‘publishes’ any information or is a ‘speaker’. Section 230(c) is
irrelevant.”); see also Doe v. Internet Brands, Inc., 824 F.3d 846,
853 (9th Cir. 2016) (“[t]he CDA does not provide a general immunity
against all claims derived from third-party content.”); Chicago
Lawyers’ Comm. for Civil Rights Under Law, Inc. v. Craigslist,
Inc., 519 F.3d 666, 670 (7th Cir. 2008) (“Why should a law designed
to eliminate ISPs’ liability to the creators of offensive material end
up defeating claims by the victims of tortious or criminal conduct?”);
Fair Hous. Council of San Fernando Valley v. Roommates.Com,

20
The Federal Circuits generally apply CDA § 230(c)(1)
broadly when the complaint involves traditional publication
activity. For instance, the Third Circuit barred a plaintiff’s
claims because he was “attempt[ing] to hold AOL liable for
decisions relating to monitoring, screening, and deletion of
content from its network – actions quintessentially related
to a publisher’s role.”66 The First Circuit struck down
sex trafficking claims against a classified advertisement
website because the claims centered on the site’s regulation
of third-party conduct causing plaintiffs’ injuries.67 And
the Fifth Circuit prevented negligence claims alleging
that an online social network took insufficient precautions
to stop a young teen from lying about her age resulting
in a sexual assault.68 But none of those cases involved
complex factual questions related to the interaction of
patented geolocation technology used to repeatedly target
a stalking victim where, as here, the internet company
was on repeated notice of the harm the weaponization of
their App was causing and willfully ignored that harm
nonetheless. The lower courts in this case have articulated
no coherent rationale as to how the fact pattern in this case
fits into the traditional rubric of traditional publishing.
Other courts are more restrictive when it comes to the
CDA’s scope. The Tenth Circuit has refused “to immunize
LLC, 521 F.3d 1157, 1164 n.15 (9th Cir. 2008) (“[T]he internet . . . has
become a dominant—perhaps the preeminent—means through which
commerce is conducted. And its vast reach into the lives of millions
is exactly why we must be careful not to exceed the scope of the
immunity provided by Congress ….”)

66. Green v. Am. Online (AOL), 318 F.3d 465, 471 (3d Cir. 2003)
67. Doe v. Internet Brands, Inc., 824 F.3d 846 (9th Cir. 2016)
68. Doe v. MySpace, Inc., 528 F.3d 413 (5th Cir. 2008)

21
a party’s conduct outside the realm of the Internet
just because it relates to the publishing of information
on the Internet.”69 The Third Circuit holds that when
the defendant does more than just publish or “speak”
information provided by a third party, CDA immunity
does not extend to claims revolving around its other
functions.70 But because there is no clear standard for the
lower courts to apply as to CDA § 230(c)(1) the topography
that emerges from the current state of the case law is one
of ad hoc decision making based on the factual vagaries
of the case rather than consistent and principled analysis
following clearly articulated guidelines.
This is particularly apparent among the conflicting
opinions in the lower courts as to whether the protections
of CDA § 230(c)(1) apply to product liability claims. The
Ninth Circuit, contrary to the holding in Herrick’s case,
holds that an online platform is not entitled to immunity for
a failure to warn product liability claim.71 In contrast, in
Obersdorf v. Amazon, the Third Circuit recently decided
that CDA § 230(c)(1) does apply to a product liability failure
to warn claim.72 The fact that the current functionality of
computer technology, functionality unimagined when
69. See Fed. Trade Comm’n v Accusearch Inc., 570 F.3d 1187,
1206 (10 th Cir. 2009) (Tymkovich, J., concurring).
70. See Obersdorf v. Amazon, No. 18-1041, 2019 WL 2849153,
at *12 (3d Cir. July 3, 2019).
71. See, Doe v. Internet Brands, Inc., 824 F.3d 846, 854 (9th
Cir. 2016) (“In short, this case presents the novel issue of whether
the CDA bars Jane Doe’s failure to warn claim under California law.
We conclude that it does not.”)
72. See Obersdorf v. Amazon, No. 18-1041, 2019 WL 2849153
(3d Cir. July 3, 2019).

22
the CDA was passed in 1996, is resulting in an increase
of product liability claims against internet companies
gives urgency to the need to determine the scope of CDA
§ 230(c)(1).73
The incoherent and inconsistent standards in the lower
courts as to the scope of CDA § 230(c)(1) is in part a result
of the difficult, fact intensive nature of any CDA § 230(c)
(1) inquiry. This is why the majority of federal circuit
courts recognize that it is generally improper to dismiss
a complaint on CDA § 230(c)(1) grounds, as happened in
this case. Unfortunately, this rule is more honored in its
breach, and this Court should make it clear to the lower
courts that dismissal on the basis of CDA § 230(c)(1) should
be reserved only for instances, unlike Herrick’s, where
the applicability of CDA § 230(c)(1) is apparent from the
face of the complaint.
II. The Court Should Grant Certiorari to Clarify that
CDA § 230(c)(1) is an Affirmative Defense
Given the fact intensive nature of whether CDA
§ 230(c)(1) applies to a case, federal circuit courts
recognize that it is generally improper to dismiss a
complaint before fact discovery.74 Courts recognize the
73. See, e.g., McDonald v. LG Elecs. USA, Inc., 219 F. Supp.
3d 533 (D. Md. 2016); Maynard v. Snapchat, Inc., 346 Ga. App. 131,
816 S.E.2d 77 (2018); Daniel, et. al. v. Armslist, LLC ,et al., No.
2017AP344, 2018 WL 1889123 (Wis. Ct. App., Apr. 19, 2018), review
granted, 2018 WI 93, 383 Wis. 2d 627, 918 N.W.2d 642, and rev’d, 2019
WI 47, 386 Wis. 2d 449, 926 N.W.2d 710.
74. See Doe v. GTE Corp., 347 F.3d 655, 657 (7th Cir. 2003)
(holding that CDA limited immunity is an affirmative defense and

23
danger in prematurely granting a motion to dismiss based
on the CDA.75
There are numerous factual questions in this case
for which the answers could point not to third party
content, but to conduct or to Grindr’s own content. For
instance, how was Grindr able to precisely geo-locate
and transmit the distance between Herrick and someone
using Grindr, if Herrick wasn’t using the App? How do
the lower courts know that Grindr’s code isn’t defective
or negligent because it doesn’t incorporate standard
safety features common in the industry? If Grindr was
repeatedly on notice of the criminal use of its App, why
isn’t this actionable tortious conduct as opposed to simply
a question of the publication of third-party content? How,
precisely, did Grindr’s functionality, a functionality far
beyond anything that fits within a traditional publishing
rubric, work in this particular instance? By dismissing
Herrick’s well pleaded complaint before discovery and
the adversarial process could answer these questions, the
lower courts engaged in speculation without any factual
that “[a]ffirmative defenses do not justify dismissal under Rule 12(b)
(6); litigants need not try to plead around defenses.”)

75. See, e.g., CYBERsitter, LLC v. Google, Inc., 905 F. Supp.
2d 1080, 1086 (C.D. Cal. 2012) (“Because Defendant’s entitlement to
immunity under the CDA depends on whether Defendant ‘developed’
or materially contributed to the content of these advertisements, it
is too early at this juncture to determine whether CDA immunity
applies.”); cf. Wang v. OCZ Tech. Group Inc., 276 F.R.D. 618, 632
(N.D. Cal. 2011) (“Whether OCZ falls within the CDA’s definition
of ‘interactive computer service,’ and whether the third-party
content allegedly displayed . . . was reproduced by OCZ in a manner
potentially subjecting it to liability, raise factual questions unfit for
disposition pursuant to a motion to strike.”)

24
basis. This Court should grant certiorari to clarify to the
lower courts that factual speculation as to the merits of
a well pleaded complaint is not grounds for dismissal on
CDA § 230(c)(1) grounds.
CONCLUSION
The Court should grant certiorari to limit the scope of
CDA § 230(c)(1) to what Congress intended - the publication
of third-party content by interactive computer services.
Since its inception, courts in this country have judicially
legislated the scope of CDA § 230(c)(1) far beyond the text
and intent of the statute into an almost absolute immunity
for interactive computer services. As recent cases in both
the federal and state courts attest, this broad reading
of the CDA is not only contrary to the text and intent of
the statute but dangerous in that it provides victims of
stalking no recourse when an interactive computer service
is the sole entity that can stop the threat to a victim’s life.
It’s 2019, not 1996, and the days where internet
activity was limited to the passive publication or retrieval
of information from internet bulletin boards are long
gone. This Court should grant certiorari to clarify this
to the lower courts, and reign in the harm caused to our
society by the judicially legislated grant of near absolute
immunity for internet companies under CDA § 230(c)(1).

25
Respectfully submitted,
Tor Ekeland
Tor Ekeland Law, PLLC
195 Montague Street,
14th Floor
Brooklyn, New York 11201
(718) 737-7264

Carrie A. Goldberg
Counsel of Record
C. A. Goldberg, PLLC
16 Court Street, 33rd Floor
Brooklyn, New York 11241
(646) 666-8908
carrie@cagoldberglaw.com

Counsel for Petitioner

APPENDIX

1a
Appendix A ORDER OF THE
APPENDIX A — SUMMARY
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, FILED MARCH 27, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
18-396
At a stated term of the United States court of Appeals
for the Second Circuit, held at Thurgood Marshall United
States courthouse, 40 Foley Square, in the City of New
York, on the 27th day of March, two thousand nineteen.
PRESENT: DENNIS JACOBS,
REENA RAGGI,
RAYMOND J. LOHIER, JR.,
		
Circuit Judges.
MATTHEW HERRICK,
Plaintiff-Appellant,
v.
GRINDR LLC, KL GRINDR HOLDINGS INC.,
GRINDR HOLDING COMPANY,
Defendants-Appellees.
March 27, 2019, Decided

2a
Appendix A
SUMMARY ORDER
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court entered on February 14,
2018 is AFFIRMED.
Matthew Herrick appeals from a judgment of the
United States District Court for the Southern District
of New York (Caproni, J.) dismissing his claims against
Grindr LLC, KL Grindr Holdings, Inc., and Grindr
Holding Company (collectively, “Grindr”). We assume
the parties’ familiarity with the underlying facts, the
procedural history, and the issues presented for review.
Grindr is a web-based “hook-up” application (“app”)
that matches users based on their interests and location.
Herrick was the victim of a campaign of harassment by his
ex-boyfriend, who created Grindr profiles to impersonate
Herrick and communicate with other users in his name,
directing the other users to Herrick’s home and workplace.
Herrick alleges that Grindr is defectively designed and
manufactured because it lacks safety features to prevent
impersonating profiles and other dangerous conduct, and
that Grindr wrongfully failed to remove the impersonating
profiles created by his ex-boyfriend.
Herrick filed suit against Grindr in New York
state court in January 2017, asserting causes of action
for negligence, deceptive business practices and false
advertising, intentional and negligent inf liction of
emotional distress, failure to warn, and negligent

3a
Appendix A
misrepresentation. On the same day the complaint was
filed, the state court entered an ex parte temporary
restraining order (“TRO”) requiring Grindr to disable
all accounts impersonating Herrick. In February 2017,
Grindr removed the case to the Southern District of New
York. The district court subsequently denied Herrick’s
motion to extend the state court’s TRO, concluding that
each of his claims was either barred by Section 230 of
the Communications Decency Act of 1996 (the “CDA”),
47 U.S.C. § 230, or failed on the merits.
Herrick filed an amended complaint in March 2017,
adding causes of action for products liability, negligent
design, promissory estoppel, fraud, and copyright
infringement.1 Grindr moved to dismiss on the grounds
that all the claims other than copyright infringement are
barred by CDA § 230, and that the misrepresentationbased claims fail on the merits. KL Grindr Holdings, Inc.
(“KL Grindr”) and Grindr Holding Company (“Grindr
Holding”) additionally moved to dismiss for lack of
personal jurisdiction.
On January 25, 2018, the district court granted the
motions to dismiss. Herrick argues on appeal that the
district court erred in dismissing the majority of his
claims as barred by the CDA; that he sufficiently pleaded
the claims that were dismissed on the merits; and that
the district court abused its discretion in denying leave
to amend the complaint.
1. Herrick does not appeal the dismissal of the copyright
infringement claim.

4a
Appendix A
We review de novo a district court’s grant of a motion
to dismiss under Federal Rule of Civil Procedure 12(b)
(6). ACLU v. Clapper, 785 F.3d 787, 800 (2d Cir. 2015). We
review the district court’s denial of leave to amend for
abuse of discretion. United States ex rel. Ladas v. Exelis,
Inc., 824 F.3d 16, 28 (2d Cir. 2016).
1. Under CDA § 230(c), “[n]o provider or user of an
interactive computer service shall be treated as the
publisher or speaker of any information provided by
another information content provider.” 47 U.S.C. § 230(c)
(1). “In applying the statute, courts have broken it down
into three component parts, finding that it shields conduct
if the defendant [A] is a provider or user of an interactive
computer service, [B] the claim is based on information
provided by another information content provider and [C]
the claim would treat the defendant as the publisher or
speaker of that information.” FTC v. LeadClick Media,
LLC, 838 F.3d 158, 173 (2d Cir. 2016) (internal quotation
marks and alterations omitted). “The majority of federal
circuits have interpreted [§ 230(c)] to establish broad
federal immunity to any cause of action that would make
service providers liable for information originating with
a third-party user of the service.” Almeida v. Amazon.
com, Inc., 456 F.3d 1316, 1321 (11th Cir. 2006) (internal
quotation marks omitted).
A.

Grindr is a provider of an interactive computer
service.

Herrick suggests that the Grindr app is not an
interactive computer service (“ICS”). The CDA defines

5a
Appendix A
an ICS as “any information service, system, or access
software provider that provides or enables computer
access by multiple users to a computer server . . . .” 47
U.S.C. § 230(f)(2). This definition “has been construed
broadly to effectuate the statute’s speech-protective
purpose.” Ricci v. Teamsters Union Local 456, 781 F.3d
25, 28 (2d Cir. 2015).
As the district court observed, courts have repeatedly
concluded that the definition of an ICS includes “social
networking sites like Facebook.com, and online matching
services like Roommates.com and Matchmaker.com,”
which, like Grindr, provide subscribers with access to a
common server. App. 198 (collecting cases). Indeed, the
Amended Complaint expressly states that Grindr is an
ICS, and Herrick conceded as much at a TRO hearing
in the district court. Accordingly, we see no error in the
district court’s conclusion that Grindr is an ICS.
B. Herrick’s claims are based on information
provided by another information content
provider.
Herrick argues that his claims are not based on
information provided by another information content
provider. He argues that while the information in a user’s
Grindr profile may be “content,” his claims arise from
Grindr’s management of its users, not user content.
Herrick’s products liability claims arise from the
impersonating content that Herrick’s ex-boyfriend
incorporated into profiles he created and direct messages

6a
Appendix A
with other users. Although Herrick argues that his claims
“do[] not arise from any form of speech,” Appellant’s Br. at
33, his ex-boyfriend’s online speech is precisely the basis of
his claims that Grindr is defective and dangerous. Those
claims are based on information provided by another
information content provider and therefore satisfy the
second element of § 230 immunity. See Ricci, 781 F.3d at
27-28.
The claims for negligence, negligent infliction of
emotional distress, and intentional infliction of emotional
distress relate, in part, to the app’s geolocation function.
These claims are likewise based on information provided
by another information content provider. Herrick contends
Grindr created its own content by way of the app’s
“automated geolocation of users,” but that argument is
undermined by his admission that the geolocation function
is “based on real-time streaming of [a user’s] mobile
phone’s longitude and latitude.” Appellant’s Br. at 32. It
is uncontested that Herrick was no longer a user of the
app at the time the harassment began; accordingly, any
location information was necessarily provided by Herrick’s
ex-boyfriend.
C.

Herrick’s claims treat Grindr as the publisher
or speaker of the offensive content.

As we have observed, “[a]t its core, § 230 bars ‘lawsuits
seeking to hold a service provider liable for its exercise
of a publisher’s traditional editorial functions--such as
deciding whether to publish, withdraw, postpone or alter
content.’” LeadClick Media, LLC, 838 F.3d at 174 (quoting

7a
Appendix A
Jones v. Dirty World Entm’t Recordings LLC, 755 F.3d
398, 407 (6th Cir. 2014)). Therefore, allegations based on
an ICS’s “refus[al] to remove” offensive content authored
by another are barred by § 230. Ricci, 781 F.3d at 28.
Herrick argues that his claims are premised on
Grindr’s design and operation of the app rather than on
its role as a publisher of third-party content. However,
as the district court observed, Grindr’s alleged lack of
safety features “is only relevant to Herrick’s injury to
the extent that such features would make it more difficult
for his former boyfriend to post impersonating profiles or
make it easier for Grindr to remove them.” App. 202. It
follows that the manufacturing and design defect claims
seek to hold Grindr liable for its failure to combat or
remove offensive third-party content, and are barred by
§ 230. See, e.g., Jane Doe No. 1 v. Backpage.com, LLC, 817
F.3d 12, 21 (1st Cir. 2016) (claims based on the “structure
and operation” of a defendant ICS were barred by § 230
because the lack of safety features reflects “choices about
what content can appear on the website and in what form,”
which are “editorial choices that fall within the purview
of traditional publisher functions”); Universal Commc’n
Sys., Inc. v. Lycos, Inc., 478 F.3d 413, 422 (1st Cir. 2007)
(the defendant’s “decision not to reduce misinformation
by changing its web site policies was as much an editorial
decision with respect to that misinformation as a decision
not to delete a particular posting”).
Herrick argues that the failure to warn claim is not
barred by § 230, relying on Doe v. Internet Brands, 824
F.3d 846 (9th Cir. 2016). But in Internet Brands, there

8a
Appendix A
was no allegation that the defendant’s website transmitted
potentially harmful content; the defendant was therefore
not an “intermediary” shielded from liability under § 230.
Id. at 852. Herrick’s failure to warn claim is inextricably
linked to Grindr’s alleged failure to edit, monitor, or
remove the offensive content provided by his ex-boyfriend;
accordingly, it is barred by § 230. See LeadClick Media,
LLC, 838 F.3d at 174.
In any event, insofar as Herrick faults Grindr for
failing to generate its own warning that its software
could be used to impersonate and harass others, the
claim fails for lack of causation. See Estrada v. Berkel,
Inc., 14 A.D.3d 529, 530, 789 N.Y.S.2d 172 (2d Dep’t 2005)
(observing that causation is element of failure to warn
claim). Since, as the Amended Complaint admits, Herrick
deactivated his Grindr account in 2015 (over one year
before any impersonation or harassment), any purported
failure to warn Herrick when he first downloaded Grindr
in 2011 is unrelated to his ex-boyfriend’s subsequent use
of the app. In sum, there is no basis to infer from the
Amended Complaint that Grindr’s failure to warn caused
Herrick’s injury. The district court therefore did not err
in dismissing the failure to warn claim.
To the extent that the claims for negligence,
intentional infliction of emotional distress, and negligent
infliction of emotional distress are premised on Grindr’s
allegedly inadequate response to Herrick’s complaints,
they are barred because they seek to hold Grindr liable for
its exercise of a publisher’s traditional editorial functions.
LeadClick Media, LLC, 838 F.3d at 174. To the extent that

9a
Appendix A
they are premised on Grindr’s matching and geolocation
features, they are likewise barred, because under § 230
an ICS “will not be held responsible unless it assisted in
the development of what made the content unlawful” and
cannot be held liable for providing “neutral assistance”
in the form of tools and functionality available equally to
bad actors and the app’s intended users. See id. at 174,
176 (citing Fair Hous. Council of San Fernando Valley
v. Roommates.Com, LLC, 521 F.3d 1157, 1168 (9th Cir.
2008) (in banc)).
***
For the foregoing reasons, Herrick’s products liability
claims and claims for negligence, intentional infliction of
emotional distress, and negligent infliction of emotional
distress are barred by CDA § 230, and dismissal on that
ground was appropriate because “the statute’s barrier
to suit is evident from the face of the complaint.” Ricci,
781 F.3d at 28.
2. Herrick argues that the district court erred in ruling
that his claims for fraud, negligent misrepresentation,
promissory estoppel, deceptive business practices, and
false advertising fail to state a claim on the merits.
A.

Fraud

“Under New York law, to state a claim for fraud a
plaintiff must demonstrate: (1) a misrepresentation or
omission of material fact; (2) which the defendant knew to
be false; (3) which the defendant made with the intention of

10a
Appendix A
inducing reliance; (4) upon which the plaintiff reasonably
relied; and (5) which caused injury to the plaintiff.” Wynn
v. AC Rochester, 273 F.3d 153, 156 (2d Cir. 2001) (citing
Lama Holding Co. v. Smith Barney, Inc., 88 N.Y.2d 413,
421, 668 N.E.2d 1370, 646 N.Y.S.2d 76 (1996)).
The district court determined that there was no
material misrepresentation by Grindr because the
allegedly misleading statements identified in the Amended
Complaint--Grindr’s Terms of Service and its “community
values page”--do not represent that Grindr will remove
illicit content or take action against users who provide such
content, and the Terms of Service specifically disclaim
any obligation or responsibility to monitor user content.
On appeal, Herrick contends that the district court erred
by considering language from Grindr’s Terms of Service
that was not incorporated into the Amended Complaint
and reaffirms his contention that the community values
page “fraudulently conveys that Grindr has the capacity
to help.” Appellant’s Br. at 41 (emphasis omitted).
Even if we were to assume that there were material
misrepresentations in Grindr’s Terms of Service and
community values page and that Herrick reasonably relied
upon them when he created a Grindr account in 2011, his
claim would nevertheless fail for lack of causation. As the
district court observed, Herrick deactivated his Grindr
account in 2015 when he met his (now) ex-boyfriend,
before any harassment began. Herrick therefore could
have suffered the exact same harassment if he had never
seen the Terms of Service or created a Grindr account;
so his injury is not a “direct and proximate result of his

11a
Appendix A
reliance on [the alleged] misrepresentations,” Lehman v.
Dow Jones & Co., 783 F.2d 285, 296 (2d Cir. 1986), and
the district court therefore did not err in dismissing the
fraud claim.
B. Negligent Misrepresentation
Herrick’s negligent misrepresentation claim was
dismissed on the same grounds as his fraud claim, and
on the additional ground that the Amended Complaint
fails to allege a “special relationship” sufficient to sustain
a claimed negligent misrepresentation. See Anschutz
Corp. v. Merrill Lynch & Co., 690 F.3d 98, 114 (2d Cir.
2012). Since (for reasons adduced above) the Amended
Complaint fails to plausibly allege that Grindr’s alleged
misrepresentations are a proximate cause of Herrick’s
injury, the district court did not err in dismissing the
negligent misrepresentation claim. See Laub v. Faessel,
297 A.D.2d 28, 30, 745 N.Y.S.2d 534 (1st Dep’t 2002).
C.

Promissory Estoppel

The district court determined that Herrick’s
promissory estoppel claim must be dismissed because
it fails to allege a sufficiently unambiguous promise and
fails to plausibly allege reasonable reliance. Herrick takes
issue with these rulings, but even if we assume that the
Amended Complaint plausibly alleges a promise and
reasonable reliance, Herrick has failed to explain how
his injury was “sustained . . . by reason of his reliance”
on the alleged promise. See Esquire Radio & Elecs., Inc.
v. Montgomery Ward & Co., 804 F.2d 787, 793 (2d Cir.
1986). His promissory estoppel claim (like the claims for

12a
Appendix A
fraud and negligent misrepresentation) was appropriately
dismissed for failure to plausibly allege causation.
D.

Deceptive Business Practices and False
Advertising

The district court determined that the claims for
deceptive business practices and false advertising under
New York General Business Law (“GBL”) §§ 349 and 350
fail because the Amended Complaint does not plausibly
allege that a reasonable consumer would be misled
by Grindr’s statements, and with respect to the false
advertising claim, for the additional reason that it fails
to allege reasonable reliance. On appeal, Herrick cites
allegations regarding Grindr’s “promotional statements
made on its website and its [Terms of Service] assuring
potential users it would moderate abusive content and act
to prevent harassment of its users.” Appellant’s Br. at 47.
As the district court observed, Grindr’s Terms of
Service specify, inter alia, that “Grindr assumes no
responsibility for actively monitoring User Content for
inappropriate content,” and that “Grindr does not endorse
and has no control over the content of User Content
submitted by other Users.” App. 210 (internal quotation
marks omitted). Those disclaimers were properly
considered by the district court in its ruling on the motion
to dismiss. Chambers v. Time Warner, Inc., 282 F.3d
147, 152-53 (2d Cir. 2002) (“[T]he complaint is deemed to
include . . . any statements or documents incorporated
in it by reference,” and “[e]ven where a document is not
incorporated by reference, the court may nevertheless
consider it where the complaint relies heavily upon its
terms and effect, which renders the document integral
to the complaint.” (internal quotation marks omitted)). In

13a
Appendix A
view of the disclaimers in the Terms of Service, Herrick
has failed to plausibly allege that a reasonable consumer
would be misled by Grindr’s statements, and the district
court therefore did not err in dismissing the claims under
GBL §§ 349 and 350. See Stutman v. Chem. Bank, 95
N.Y.2d 24, 29, 731 N.E.2d 608, 709 N.Y.S.2d 892 (2000).
3. The district court denied leave to amend the
complaint for a second time on the ground that Herrick
failed to attach a proposed amended complaint to his
request for leave. In view of the fatal deficiencies in
Herrick’s claims described above, we see no abuse of
discretion in the district court’s denial of leave to amend.
See Credit Chequers Info. Servs., Inc. v. CBA, Inc., 205
F.3d 1322 (2d Cir. 2000) (summary order) (denying motion
to amend where “appellant has given no indication of what
amendment is proposed that would state a valid claim for
relief,” and therefore “failed to meet its burden of setting
forth with particularity the grounds for supporting its
motion”).
We have considered Herrick’s remaining arguments
and conclude they are without merit. 2 The judgment of
the district court is therefore AFFIRMED.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE,
CLERK
/s/				
2. Because the complaint must be dismissed in its entirety on
the grounds of CDA immunity and failure to state claims, we need
not address Grindr Holding’s and KL Grindr’s personal jurisdiction
arguments.

14a
AppendixAND
B ORDER of the
Appendix B — OPINION
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK, FILED
JANUARY 25, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17-CV-932 (VEC)
MATTHEW HERRICK,
Plaintiff,
-againstGRINDR, LLC; KL GRINDR HOLDINGS, INC.;
and GRINDR HOLDING COMPANY,
Defendants.
January 25, 2018, Decided
January 25, 2018, Filed
OPINION AND ORDER
VALERIE CAPRONI, United States District Judge:
Grindr, LLC (“Grindr”) is a web-based dating
application (“app”) for gay and bi-sexual men. Plaintiff
Matthew Herrick (“Herrick”) is a former Grindr user and
the victim of a campaign of malicious catfishing:1 since
1. A “catfish” is “a person who sets up a false personal profile
on a social networking site for fraudulent or deceptive purposes.”

15a
Appendix B
October 2016, Herrick’s former boyfriend has used Grindr
to impersonate Herrick by posting fake profiles to Grindr,
which describe Herrick as being interested in fetishistic
sex, bondage, role playing, and rape fantasies and which
encourage potential suitors to go to Herrick’s home or
workplace for sex. Allegedly hundreds of interested
Grindr users have responded to the false profiles and
many of them have physically sought out Herrick. This
lawsuit is, however, against Grindr, not Herrick’s former
boyfriend. Herrick alleges 14 causes of action, the gist
of which is that Grindr is a defectively designed and
manufactured product because it lacks built-in safety
features; that Grindr misled Herrick into believing it could
interdict impersonating profiles or other unpermitted
content; and that Grindr has wrongfully refused to search
for and remove the impersonating profiles. Grindr and
its two corporate parents, KL Grindr Holdings, Inc.
(“KL Grindr”) and Grindr Holding Company (“Grindr
Holding” and together with Grindr and KL Grindr, the
“Defendants”), have moved to dismiss on the grounds
that Section 230 of the Communications Decency Act
of 1996 (the “CDA”), 47 U.S.C. § 230, immunizes Grindr
from liability for content created by other users. The
Court agrees. The CDA bars Herrick’s products liability
claims and his claims that Grindr must do more to remove
impersonating profiles. Each of these claims depends on
holding Grindr responsible for the content created by one
of its users. Herrick’s misrepresentationrelated claims
fail on their merits because Herrick has not alleged a
misleading or false statement by Grindr or that Grindr’s
alleged misstatements are the cause of his injury.
Catfish, M erriam-Webster’s Collegiate Dictionary (11th ed.
2018).

16a
Appendix B
BACKGROUND
Herrick joined Grindr in approximately May 2011.
Am. Compl. (Dkt. 34) ¶ 46. Grindr works by matching
users based on their interests and location. Am. Compl.
¶¶ 22-24, 31. In order to set up a Grindr profile, a user
must enter his email address, accept Grindr’s terms of
service, and create a profile, including a “display name,
profile photo, and ‘about me’ section.” Am. Compl. ¶ 32.
Users can customize their profile by selecting from a
list of drop-down menus, including, inter alia, their age,
height, weight, body type, and preferred sexual position.
Am. Compl. ¶ 32.
The app’s user-interface presents each user with a
scroll of thumbnails of compatible profiles. Am. Compl.
¶ 31. Matches are generated by Grindr’s algorithmic
sorting and filtering software and are based on sexual
preferences — as captured by the user’s profile — and
location. Am. Compl. ¶¶ 31, 53. Grindr accesses a user’s
location by accessing the latitude and longitude of his
mobile device. Am. Compl. ¶ 24. Once two users match,
the app allows them to send direct messages. Am. Compl.
¶ 31. Users can also generate and share a map of their
location, based on the geolocational data collected by the
app. Am. Compl. ¶ 24.
Herrick “matched” with his former boyfriend in
June 2015 and deactivated his Grindr account after the
relationship became exclusive in November 2015. Am.
Compl. ¶ 48. At some unspecified time, the two parted
ways, apparently on bad terms. Beginning in October

17a
Appendix B
2016, Herrick’s former boyfriend began impersonating
Herrick on Grindr. Am. Compl. ¶ 49. The impersonating
profiles suggest that Herrick is interested in “serious
kink and many fantasy scenes,” hardcore and unprotected
group sex, and “hosting” — that is looking for partners
to meet him at his location. Am. Compl. ¶ 50. Herrick
alleges that “approximately 1100” users responded to
the impersonating profiles from October 2016 through
the end of March 2017. Am. Compl. ¶ 49; see also Am.
Compl. ¶¶ 54-62 (describing interactions with numerous
men responding to the impersonating profiles at Herrick’s
home and work). Grindr’s direct messaging feature was
used to facilitate the scheme. Users were transmitted
maps of Herrick’s location, Am. Compl. ¶ 52, and some
of the men were told to expect that Herrick would resist
their approach, which they were told was part of a rapefantasy or role play, Am. Compl. ¶ 62. Herrick also alleges
that Grindr’s geolocation functionality directed some of
these users to his home and work (even though the app
is no longer installed on his phone). 2 Am. Compl. ¶ 52.
Herrick and others have reported the impersonating
accounts to Grindr approximately 100 times, but Grindr
has not responded, other than to send an automated, form
response. Am. Compl. ¶ 71.
2. This allegation contradicts Herrick’s explanation of the
scheme at oral argument in respect of his motion for a temporary
restraining order. At that hearing, counsel agreed that Grindr
does not have Herrick’s location, because the app is not installed
on his phone, and that users responding to the fake profiles learn
of Herrick’s location through direct messages from Herrick’s
former boyfriend (masquerading as Herrick). See Declaration
of Jacquelyn Schell (“Schell Declr”) (Dkt. 43) Ex. B (“TRO Hr’g
Tr.”) at 8:1-5.

18a
Appendix B
The Amended Complaint alleges that the design of
the Grindr app has enabled this campaign of harassment.
More specifically, Herrick alleges that Grindr does not
incorporate certain safety features that could prevent
impersonating profiles. 3 Herrick alleges that Grindr
does not use “proven and common image recognition or
duplicate-detection software,” which could be used to
search for profiles using Herrick’s picture. Am. Compl. ¶ 79;
see also Am. Compl. ¶ 84 (Grindr does not use “PhotoDNA
technology” to identify unauthorized photographs). Grindr
does not run keyword searches on direct messages sent
through the app. Am. Compl. ¶¶ 80, 83. Grindr does
not have the ability to search for IP addresses, MAC
addresses, and ICC numbers or block the use of spoofing,
proxies, and virtual private networks (VPNs), all of which
might prevent new impersonating accounts. Am. Compl.
¶ 82. And Grindr could use a technique called “geofencing”
to determine when an impersonating account is associated
either with Herrick’s address or the address of his former
boyfriend. Am. Compl. ¶ 85.4
According to Herrick, Grindr is on notice of the
potential for the app to be misused and nonetheless
failed to warn users (including Herrick) of this risk:
3. According to the Amended Complaint, similar apps are
able to remove offensive content within 24 hours and can more
effectively block users from creating new accounts. Am. Compl.
¶ 45.
4. According to the Amended Complaint, Grindr has told
Herrick that it can block profiles or Grindr users only if Herrick
reports them individually. Am. Compl. ¶ 87.

19a
Appendix B
“Grindr neither warned users of this location exposure
vulnerability, nor that Grindr could be used to direct
scores of potentially dangerous individuals to their
workplace and home.” Am. Compl. ¶ 38. Herrick alleges,
instead, that Grindr’s advertising and terms of service led
him to believe that Grindr had effective controls in place
to prevent harassment. “At all relevant times, Grindr
represented to users in its advertising and community
values page that it protects users from ‘behaviors that
endanger them.’” Am. Compl. ¶ 40; see also Am. Compl.
¶ 41 (Grindr’s website states that “[i]n order for everyone
to have the best time possible, we have a system of
digital and human screening tools to protect our users
from actions and behaviors that endanger them and go
against what we’re about.”). Grindr’s terms of service
(the “Terms of Service”) also require users to agree that
they will not engage in a list of prohibited behaviors,
including: using Grindr to “‘stalk,’ harass[,] abuse, defame,
threaten or defraud other Users”; “impersonat[ing]
any person or entity”; or posting “material which a
reasonable person could deem to be objectionable . . .,
offensive, obscene, indecent, pornographic, harassing,
threatening, . . ., intentionally misleading, false, or
otherwise inappropriate.” Am. Compl. ¶ 42. The Terms
of Service warn that Grindr may delete submissions, ban
accounts, or terminate access to the app for violations of
these policies. Am. Compl. ¶ 42.
Herrick filed suit in state court on January 27, 2017.
Not. of Removal (Dkt. 1) ¶ 3. The original complaint
included causes of action for negligence, deceptive
business practices and false advertising, intentional and

20a
Appendix B
negligent infliction of emotional distress, failure to warn,
and negligent misrepresentation. See generally Not. of
Removal Ex. A. Although the state court entered an
ex parte temporary restraining order against Grindr
on January 27, 2017, Am. Compl. ¶ 75, Grindr removed
the case to this Court on February 8, 2017. See Not. of
Removal.
The Court denied Herrick’s motion for an extension of
the state court’s temporary restraining order on February
22, 2017. Herrick v. Grindr, LLC, No. 17-CV-932 (VEC),
2017 U.S. Dist. LEXIS 26651, 2017 WL 744605 (S.D.N.Y.
Feb. 24, 2017) (“TRO Op.”). The Court concluded that
each of the claims in the original complaint was either
barred by Section 230 of the Communications Decency
Act or failed on its merits. To the extent Grindr has a
role in creating the impersonating profiles, the Court
found that it is through “neutral assistance” — functions
which are available to all users and not tortious in their
own right — rather than in creating the content that has
caused Herrick’s injury. 2017 U.S. Dist. LEXIS 26651,
[WL] at *4. Because Herrick’s claims are premised on
Grindr’s failure to monitor and remove content it did
not create, the Court found that Herrick’s claims were
likely to be barred by the CDA. Id. Moreover, the Court
concluded that Herrick’s claims for deceptive practices,
false advertising, and misrepresentation were unlikely
to succeed because the causal nexus between Grindr’s
representations to Herrick in 2011 and the harassment
Herrick suffered in 2016 and 2017 is too attenuated to
state a claim. 2017 U.S. Dist. LEXIS 26651, [WL] at *5.

21a
Appendix B
Herrick filed an amended complaint on March
31, 2017, doubling down on his theory that Grindr is
responsible for the impersonating profiles. The Amended
Complaint alleges that Grindr is responsible for the
impersonating profiles because it designed an app that
is easily manipulated and misused and because it has not
taken adequate steps to stop the impersonating profiles.
In addition to the claims raised in the original complaint,
the Amended Complaint alleges causes of action for
products liability (causes of action I, II, and III), and
negligent design (cause of action IV). Herrick has also
expanded on his theory that Grindr’s advertising and
terms of service are misleading, pleading new claims
for promissory estoppel and fraud (causes of action VIII
and IX). Finally, Herrick has added a claim for copyright
infringement, based on the use of his photograph in many
of the impersonating profiles (cause of action VII).
Defendants have moved to dismiss. Grindr argues
that all of Herrick’s claims (with the exception of his
copyright claim) are barred by the CDA because Herrick’s
former boyfriend created the impersonating profiles; not
Grindr. Grindr argues that the CDA also bars any claim
based on its failure to more effectively search for and to
remove the impersonating profiles, or to block the former
boyfriend from creating new ones, because these claims
treat Grindr as responsible for the false content itself.
Herrick’s misrepresentation-based claims fail, according
to Grindr, because he has not identified any statement by
Grindr in which it committed to remove impersonating
content, and because Grindr’s statements in 2011 are too
attenuated from Herrick’s injury in 2016 and 2017. KL

22a
Appendix B
Grindr and Grindr Holdings have joined in the motion to
dismiss and also move to dismiss on personal jurisdiction
grounds because the Amended Complaint does not allege
any suit-related contacts with this forum by either entity.
See Dkts. 47, 49, and 50.
DISCUSSION
To survive a motion to dismiss under Rule 12(b)(6),
“a complaint must allege sufficient facts, taken as true,
to state a plausible claim for relief.” Johnson v. Priceline.
com, Inc., 711 F.3d 271, 275 (2d Cir. 2013) (citing Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555-56, 127 S. Ct. 1955,
167 L. Ed. 2d 929 (2007)). In reviewing a Rule 12(b)(6)
motion to dismiss, courts “accept[] all factual allegations
as true and draw[] all reasonable inferences in favor of
the plaintiff.” N.J. Carpenters Health Fund v. Royal
Bank of Scotland Grp., PLC, 709 F.3d 109, 119 (2d Cir.
2013) (quoting Litwin v. Blackstone Grp., LP, 634 F.3d
706, 715 (2d Cir. 2011)). Nonetheless, in order to survive
a motion to dismiss, “a complaint must contain sufficient
factual matter . . . to ‘state a claim to relief that is plausible
on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.
Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting Twombly,
550 U.S. at 544). “Plausibility” is not certainty. Iqbal
does not require the complaint to allege “facts which can
have no conceivable other explanation, no matter how
improbable that explanation may be.” Cohen v. S.A.C.
Trading Corp., 711 F.3d 353, 360 (2d Cir. 2013). But
“[f]actual allegations must be enough to raise a right to
relief above the speculative level,” Twombly, 550 U.S. at
555, and “[courts] ‘are not bound to accept as true a legal

23a
Appendix B
conclusion couched as a factual allegation,’” Brown v.
Daikin Am. Inc., 756 F.3d 219, 225 (2d Cir. 2014) (quoting
Twombly, 550 U.S. at 555) (other internal quotations
marks and citations omitted). 5
1. 	Products Liability and Negligent Design and
Failure to Warn
Grindr argues that Section 230 of the CDA bars
Herrick’s products liability and negligent design and
failure to warn claims. Herrick alleges in these claims
that Grindr’s “server-side software,” Am. Compl. ¶ 112,
5. Because each of Herrick’s claims fails for the reasons given
below, the Court does not address personal jurisdiction over KL
Grindr and Grindr Holdings. See Sullivan v. Barclays PLC, No.
13-CV-2811 (PKC), 2017 U.S. Dist. LEXIS 25756, 2017 WL 685570,
at *11 (S.D.N.Y. Feb. 21, 2017) (“In cases such as this one with
multiple defendants—over some of whom the court indisputably
has personal jurisdiction—in which all defendants collectively
challenge the legal sufficiency of the plaintiff’s cause of action, we
may address first the facial challenge to the underlying cause of
action and, if we dismiss the claim in its entirety, decline to address
the personal jurisdictional claims made by some defendants.”
(quoting Chevron Corp. v. Naranjo, 667 F.3d 232, 247 n.17 (2d Cir.
2012))). The Court notes, however, that the Amended Complaint
contains no factual allegations whatsoever against either KL
Grindr or Grindr Holdings and Herrick appears to acknowledge
that he has engaged in group pleading. See Opp’n (Dkt. 54) at
49 (The amended complaint “clearly identifies the defined term
‘Defendant’ as collectively owning, maintaining, and controlling
the weaponized product. It is apparent from the assertion that
all three entities are responsible for the ownership, maintenance
and control of the product that Plaintiff’s allegations apply fully
to each Defendant.”).

24a
Appendix B
is defectively and negligently designed and manufactured
because it does not incorporate “widely used, proven and
common software to flag and detect abusive accounts,”
which “resulted in Grindr selecting and directing an
incessant stream [of] men demanding sex from [Herrick],”
Am. Compl. ¶ 109. Herrick’s failure to warn claim — also
pleaded as products liability and negligence — is based
on Grindr’s failure to warn that the app can be used as a
tool for harassment and that Grindr has limited ability to
stop abuse. Am. Compl. ¶¶ 117, 129. The Court agrees with
Grindr. To the extent Herrick has identified a defect in
Grindr’s design or manufacture or a failure to warn, it is
inextricably related to Grindr’s role in editing or removing
offensive content — precisely the role for which Section
230 provides immunity.
Section 230 provides that “[n]o provider or user of
an interactive computer service shall be treated as the
publisher or speaker of any information provided by
another information content provider.” 47 U.S.C. § 230(c)
(1). There are three elements to a claim of immunity
under Section 230(c). The defendant must show that: “(1)
[it] ‘is a provider . . . of an interactive computer service,
(2) the claim is based on information provided by another
information content provider and (3) the claim would
treat the defendant as the publisher or speaker of that
information.’” FTC v. LeadClick Media, LLC, 838 F.3d
158, 173 (2d Cir. 2016) (quoting Jane Doe No. 1 v. Backpage.
com, LLC, 817 F.3d 12, 19 (1st Cir. 2016)) (additional
citations omitted). The term “publisher” is borrowed from
defamation law (though Section 230 does not apply to
defamation claims exclusively). See Zeran v. Am. Online,
Inc., 129 F.3d 327, 332 (4th Cir. 1997).

25a
Appendix B
Although Herrick contends that Grindr is not an
“interactive computer service” (or an “ICS”), the Court
finds that there is no plausible basis to argue that it is
not. An “interactive computer service” is defined as “any
information service, system, or access software provider
that provides or enables computer access by multiple
users to a computer server . . . .” 47 U.S.C. § 230(f)
(2). Courts applying this definition have had no trouble
concluding that social networking sites like Facebook.com,
and online matching services like Roommates.com and
Matchmaker.com, are “interactive computer services.”
See Cohen v. Facebook, Inc., 252 F. Supp. 3d 140, 156-57
(E.D.N.Y. 2017); Fair Housing Council of San Fernando
Valley v. Roommates.Com, LLC, 521 F.3d 1157, 1162
n.6 (9th Cir. 2008); Carafano v. Metrosplash.com, Inc.,
339 F.3d 1119, 1123 (9th Cir. 2003). Like those services,
Grindr provides its subscribers with access to a common
server. See Saponaro v. Grindr, LLC, 93 F. Supp. 3d 319,
323 (D.N.J. 2015) (Grindr is an ICS because “its website
gives subscribers access to a common server for purposes
of social networking.”). Herrick has not identified any
legally significant distinction between a social networking
platform accessed through a website, such as Facebook,
and a social-networking platform accessed through a
smart phone app, such as Grindr. In either case, the
platform connects users to a central server and to each
other.6
6. Herrick’s allegation that it is Grindr’s “server-side”
software that is defective is in tension with his argument that
Grindr is not an ICS. Moreover, Herrick’s counsel conceded that
Grindr is an ICS at oral argument on Herrick’s motion to renew
the TRO. See TRO Hr’g Tr. at 25:14-18.

26a
Appendix B
The second element of immunity under Section 230(c)
is satisfied because Herrick’s design and manufacturing
defect, negligent design, and failure to warn claims are all
based on content provided by another user — Herrick’s
former boyfriend. An ICS is not the creator of offensive
content unless it contributes to the “development of what
[makes] the content unlawful.” LeadClick Media, LLC,
838 F.3d at 174 (quoting FTC v. Accusearch Inc., 570
F.3d 1187, 1201 (10th Cir. 2009)). An ICS may not be held
liable for so-called “neutral assistance,” id. at 176, or
tools and functionality that are available equally to bad
actors and the app’s intended users, Roommates.Com,
LLC, 521 F.3d at 1169. To the extent Grindr contributes
to the impersonating profiles, it is through such “neutral
assistance.” Categorization features, such as Grindr’s
drop-dow n menu for “preferred sexual position,”
constitute quintessential “neutral assistance.” See
Carafano, 339 F.3d at 1124 (“[T]he fact that Matchmaker
classifies user characteristics into discrete categories
and collects responses to specific essay questions does
not transform Matchmaker into a “developer” of the
“underlying misinformation.”); Roommates.com, 521 F.3d
at 1169 (“A dating website that requires users to enter
their sex, race, religion and marital status through dropdown menus, and that provides means for users to search
along the same lines, retains its CDA immunity insofar
as it does not contribute to any alleged illegality.”). These
features are available equally to all users and are not
intrinsically offensive or unlawful. Grindr’s algorithmic
filtering, aggregation, and display functions are similar.
See Dyroff v. Ultimate Software Grp., Inc., No. 17-CV5359-LB, 2017 U.S. Dist. LEXIS 194524, 2017 WL

27a
Appendix B
5665670, at *10 (N.D. Cal. Nov. 26, 2017) (explaining that
it is “the users’ voluntary inputs that create the content
. . . not [defendant’s] proprietary algorithms,” and relying
on Carafano and Roommates.com); Roommates.com,
LLC, 521 F.3d at 1169, 1172 (explaining that allowing
users to sort dating profiles based on user inputs does
not constitute content “development” for purposes of the
CDA); see also O’Kroley v. Fastcase Inc., No. 3-13-0780,
2014 U.S. Dist. LEXIS 86343, 2014 WL 2881526, at *1-2
(M.D. Tenn. June 25, 2014) (finding that providing search
returns based on automated algorithms and user inputs
does not constitute creating content). They apply equally
to legitimate and improper inputs, and they constitute
“neutral assistance.”
Relying on Roommates.com, Herrick argues that
Grindr contributes to what makes the impersonating
profiles offensive. See Opp’n at 20-21. The Court has
previously rejected this argument. See TRO Op., 2017
U.S. Dist. LEXIS 26651, 2017 WL 744605, at *4. In
Roommates.com, the Ninth Circuit concluded that a
website connecting potential roommates was potentially
liable for violations of the Fair Housing Act. 521 F.3d at
1166-67. The website in question required users to respond
to questions regarding protected personal characteristics
and then used the answers to those improper questions
to determine which users learned about what available
housing. “[T]he act of hiding certain listings [was] itself
unlawful under the Fair Housing Act,” id. at 1169, as were
the underlying questions themselves, id. at 1164-65; see
also id. at 1167 (“Roommate’s search engine . . . differs
materially from generic search engines such as Google,
Yahoo! and MSN Live Search, in that Roommate designed

28a
Appendix B
its system to use allegedly unlawful criteria so as to limit
the results of each search, and to force users to participate
in its discriminatory process.”). There is nothing similarly
illegal about Grindr’s drop-down menus, its geolocational
function, or its sorting, aggregation, and display functions.
See Saponaro, 93 F. Supp. 3d at 324 (rejecting analogy
between Grindr and the offensive questions and filtering
at issue in Roommates.com); see also Dyroff, 2017 U.S.
Dist. LEXIS 194524, 2017 WL 5665670 at *11 (explaining
that algorithmic sorting and filtering tools are “neutral
assistance” and rejecting an analogy to the “substantial
and affirmative conduct . . . promoting the use of such
tools for unlawful purposes” in Roommates.com (quoting
Roommates.com, 521 F.3d at 1174 n.37)).
The third element of immunity under Section 230(c)
is satisfied because the Amended Complaint seeks to
hold Grindr liable as the “publisher” or “speaker” of the
impersonating profiles. “Publication” describes the choice
by an author to include information, the communication
or transmission of information, and the failure to remove
information communicated by another party. As the Ninth
Circuit has explained, it includes “reviewing, editing,
and deciding whether to publish or to withdraw from
publication third-party content.” Barnes v. Yahoo!, Inc.,
570 F.3d 1096, 1102 (9th Cir. 2009). Courts have interpreted
“publication” capaciously to reach claims that, although
pleaded to avoid the CDA, “implicitly require recourse
to that content [posted by a third party] to establish
liability or implicate a defendant’s role, broadly defined, in
publishing or excluding third party [content].” Cohen, 252
F. Supp. 3d at 156. “To put it another way, courts must ask
whether the duty that the plaintiff alleges the defendant

29a
Appendix B
violated derives from the defendant’s status or conduct as
a ‘publisher or speaker.’” Id. (quoting Leadclick Media,
LLC, 838 F.3d at 175) (additional citations omitted); see
also Roommates.com, LLC, 521 F.3d at 1170-71 (explaining
that “publishing” includes “any activity that can be boiled
down to deciding whether to exclude material that third
parties seek to post online”); see also Backpage.com, LLC,
817 F.3d at 19-20 (explaining that plaintiffs’ claims were
unlikely to succeed because “there would be no harm to
[the plaintiffs] but for the content of the postings”).
Herrick’s claim that Grindr is liable because it failed to
incorporate adequate protections against impersonating
or fake accounts is just another way of asserting that
Grindr is liable because it fails to police and remove
impersonating content. The Fifth Circuit rejected a
similar theory in Doe v. MySpace, Inc., 528 F.3d 413 (5th
Cir. 2008). In Doe, a minor was sexually assaulted by an
adult she met through the MySpace platform. The child’s
guardians sued, alleging that MySpace had inadequate
features in place to prevent communications between
children and adults. 528 F.3d at 416. The Fifth Circuit
rejected Doe’s theory. It explained that a claim based on
MySpace’s failure to implement additional safety features
was “merely another way of claiming that MySpace was
liable for publishing the communications” themselves. Id.
at 420; see also Gibson v. Craigslist, Inc., No. 08-CV-7735
(RMB), 2009 U.S. Dist. LEXIS 53246, 2009 WL 1704355,
at *4 (S.D.N.Y. June 15, 2009) (rejecting claim that the
defendant failed to “monitor, police, maintain and properly
supervise the goods and services sold on its . . . website,”
partially relying on MySpace, Inc.). As in Doe, Herrick’s
claims depend on a connection between the safety features

30a
Appendix B
Grindr allegedly is missing and Grindr’s failure to remove
the impersonating profiles. The existence vel non of safety
features is meaningless in a vacuum, and their existence
is only relevant to Herrick’s injury to the extent that
such features would make it more difficult for his former
boyfriend to post impersonating profiles or make it easier
for Grindr to remove them.
That Herrick has based his claim on the design of
Grindr’s “server-side software” does not change the
result. To the contrary, it brings his theory closer to the
facts in Backpage.com. In Backpage.com, victims of sex
trafficking alleged that the “structure and operation” of
the Backpage.com website facilitated use of the site as
a bazaar for illegal sex services. 817 F.3d at 21. Among
other things, Backpage.com did not verify phone numbers
or limit posts after use of forbidden terms, and the
website permitted “e-mail anonymiziation, forwarding
and auto-reply” — all features that made it particularly
well-suited to illicit use. Id. The First Circuit explained
that these features, and the lack of safety features,
reflected “choices about what content can appear on the
website and in what form” and therefore were the sort of
“editorial choices that fall within the purview of traditional
publisher functions.” Id.; see also Universal Comm’cn
Sys., Inc. v. Lycos, Inc., 478 F.3d 413, 422 (1st Cir. 2007)
(“[Plaintiff] is ultimately alleging that the construct and
operation of [Defendant’s] web sites contributed to the
proliferation of misinformation; [Defendant’s] decision
not to reduce misinformation by changing its web site
policies was as much an editorial decision with respect
to that misinformation as a decision not to delete a
particular posting.”). The Court finds the First Circuit’s

31a
Appendix B
reasoning persuasive and applicable to Herrick’s design
and manufacturing defect and negligent design claims.
Like the claims in Backpage.com, Herrick’s claims are
based on features or missing safety features, such as
Grindr’s geolocational tools and Grindr’s inability to block
profiles based on ICC numbers and MAC address or to
search for profiles by photograph. As in Backpage.com,
these features (or the lack of additional capabilities) are
only relevant to Herrick’s injury because they bear on
Grindr’s ability to search for and remove content posted
to the app — exactly the sort of “editorial choices” that
are a function of being a publisher.
Herrick’s failure to warn claims (causes of action III
and V) also require treating Grindr as the “publisher”
of the impersonating profiles.7 A duty to warn claim
“implicitly require[s]” recourse to the impersonating
profiles themselves and the traditional function of a
publisher to supervise content. See Cohen, 252 F. Supp.
3d at 156. The warning proposed by Herrick is only
necessary because Grindr (as publisher) does not police
or remove objectionable content. Although it is indirect,
liability under such a theory nevertheless depends on
Grindr’s decision to publish the impersonating profiles
without reviewing them first. Alternatively, the Court
is persuaded that requiring Grindr to post a warning at
the outset or along with each profile is no different than
7. Although Plaintiff asserts two claims, New York law does
not distinguish between negligent failure to warn and failure to
warn under a products liability theory. There is only one cause of
action for failure to warn. See In re N.Y. City Asbestos Litig., 27
N.Y.3d 765, 787, 37 N.Y.S.3d 723, 59 N.E.3d 458 (2016).

32a
Appendix B
requiring Grindr to edit the third-party content itself.
See McDonald v. LG Elecs. USA, Inc., 219 F. Supp. 3d
533, 538-39 (D. Md. 2016) (rejecting on CDA grounds
an “independent duty to speak alongside content posted
by third parties”). The fact that the proposed warning
would potentially operate at a general level, rather than
be appended to specific posts, is not significant. The CDA
applies at both the individual and systemic or architectural
level. See Lycos, Inc., 478 F.3d at 422.
Herrick argues that there is an exception to Section
230(c) — or at least “heightened accountability”—when an
ICS is on notice that its service is being used to commit a
crime or sexual violence. Opp’n at 21. Herrick’s argument
relies entirely upon Doe v. Internet Brands, Inc., 824
F.3d 846 (9th Cir. 2016), and therefore a description of
the facts of that case is in order. The ICS in Internet
Brands provided a networking website for models and
aspiring models. Id. at 848. After viewing Doe’s profile
on the website, two individuals contacted her, ostensibly
for a modeling shoot. Id. at 849. The modeling shoot was
fake, and the two men raped Doe and recorded the act for
sale as pornography. Id. at 849. Doe sued the networking
website. She alleged that it knew that the two men had
previously used the site to scout for victims but failed
to warn users of the risk. Id. at 849. The Ninth Circuit
held that the CDA did not provide immunity against
plaintiff’s negligent failure to warn claim. In reaching that
conclusion, the Court noted that the two men did not post
any content to the website, the defendant did not learn of
the scheme through its oversight of the website, and the
defendant’s monitoring of postings on its site was not at
issue. Id. at 851.

33a
Appendix B
Internet Brands is best read as holding that the CDA
does not immunize an ICS from a failure to warn claim
when the alleged duty to warn arises from something
other than usergenerated content. The bad actors in
Internet Brands did not post any content to the website,
and they contacted Doe offline. To the extent any web
content was involved, it was Doe’s own profile, which she
did not allege to be tortious. Id. at 851; see also id. at
852 (“[T]here [was] [] no allegation that [the defendant]
transmitted any potentially harmful messages between []
Doe and the [two men].”). Finally, knowledge of the misuse
of the site arose not from any content on the site but from
an outside source. Id. at 849.
By contrast, the proposed warning in this case
would be about user-generated content itself — the
impersonating profiles or the risk that Grindr could be
used to post impersonating or false profiles. Unlike in
Internet Brands, Herrick’s failure-to-warn claim depends
on a close connection between the proposed warning
and user-generated content. Additionally, Herrick’s
proposed warning is about Grindr’s publishing functions.
He proposes that Grindr should warn users that the app
can be used to impersonate or harass individuals, that
the “features on the interface to report abusive accounts
are merely decorative” and that Grindr “shun[s] the basic
technology widely used in their industry to prevent or
stop known abuse.”8 Am. Compl. ¶ 117. Because Herrick’s
8. As the Court has explained, supra, a warning about thirdparty content is a form of editing, just as much as a disclaimer
printed at the top of a page of classified ads in a newspaper
would be. To the extent Internet Brands can be read to hold that,

34a
Appendix B
proposed warning is about user-generated content and
goes to Grindr’s publishing functions, Internet Brands
does not apply.9
2. Negligence, Intentional Infliction of Emotional
Distress, and Negligent Infliction of Emotional
Distress
The CDA also bars Herrick’s claims for negligence
(cause of action VI),10 intentional infliction of emotional
notwithstanding the CDA, an ICS could be required to publish
a warning about the potential for misuse of content posted to its
site, this Court respectfully disagrees.
9. The Court does not address Grindr’s argument that it is
not a “product” for purposes of products liability. It appears to be
common ground between the parties that strict products liability
may apply to standardized and mass-downloaded software but
does not apply to information or “expressive” content. See Opp’n at
14; Reply Br. (Dkt. 58) at 8 (assuming that standardized software
is a product); see also Simulados Software, Ltd. v. Photon Infotech
Private Ltd., 40 F. Supp. 3d 1191, 1200-01 (N.D. Cal. 2014); Rottner
v. AVG Tech. USA, Inc., 943 F. Supp. 2d 222, 230 (D. Mass. 2013);
cf. Gorran v. Atkins Nutritionals, Inc., 464 F. Supp. 2d 315, 324-25
(S.D.N.Y. 2006) (applying the same distinction to the “intangible”
information contained in a book and the book’s “tangible” form).
As the Court has explained, Herrick’s real complaint is with the
impersonating profiles, which are expressive content that was
not created by Grindr. To the extent Herrick takes issue with
Grindr’s software architecture and features, the CDA applies and
the Court need not address whether those aspects of the software
are “products” for purposes of strict products liability.
10. This negligence claim is distinct from Herrick’s negligence
claims for defective design and failure to warn.

35a
Appendix B
distress (“IIED”) (cause of action XII), and negligent
infliction of emotional distress (“NIED”) (cause of action
XIII). These claims are based on Grindr’s role in matching
users, through its filtering and aggregation algorithm, and
its allegedly inadequate response to Herrick’s complaints.
See Am. Compl. ¶¶ 136, 138 (“Grindr negligently failed to
investigate and respond to [Herrick’s] reports of abuse,
impersonation, and stalking.”), 189 (Grindr improperly
“handled” Herrick’s “pleas for it to control its product
and disable the accounts used to destroy his life”), 192
(Grindr “directly caused” Herrick’s injury by “select[ing]
and direct[ing] hundreds and hundreds of visitors to
Plaintiff.”), 198 (Grindr ignored “numerous complaints
and requests for [it] to control its product and disable the
[impersonating] accounts being used to destroy [Herrick’s]
life.”). To the extent these claims are premised on Grindr’s
“neutral assistance” and software architecture, they
fail for the reasons already given. See supra at 9-10, 13;
Backpage.com, 817 F.3d at 21. To the extent these claims
are based on Grindr’s alleged obligation to police and
remove content, they are also barred by the CDA. As the
Court has explained previously, allegations premised on
an ICS’s failure to “block, screen, or otherwise prevent
the dissemination of a third party’s content,” seek to hold
the defendant liable in its capacity as a “publisher.” TRO
Op., 2017 U.S. Dist. LEXIS 26651, 2017 WL 744605, at *4
(quoting Gibson, 2009 U.S. Dist. LEXIS 53246, 2009 WL
1704355, at *4); Barnes, 570 F.3d at 1102. There is no basis
to treat Grindr differently simply because it operates a
smart phone app rather than a website. See Saponaro,
93 F. Supp. 3d at 323) (rejecting claims based on Grindr’s
failure to search for and remove underage users).

36a
Appendix B
Even if the CDA did not bar these claims, Herrick has
not alleged plausibly the necessary elements of intentional
infliction of emotional distress. New York follows the
Restatement (Second) of Torts’s approach to intentional
infliction of emotional distress.11 See Coraggio v. Time Inc.
Magazine Co., No. 94-CV-5429 (MBM), 1995 U.S. Dist.
LEXIS 5399, 1995 WL 242047, at *6 (S.D.N.Y. April 26,
1995). In order to state a claim, a plaintiff must allege
“extreme and outrageous conduct [that] intentionally or
recklessly causes severe emotional distress to another.”
Fischer v. Maloney, 43 N.Y.2d 553, 557, 373 N.E.2d 1215,
402 N.Y.S.2d 991 (1978) (quoting Restatement (Second)
of Torts § 46 (A m. L aw Inst. 1965)). “The element of
outrageous conduct has been described as ‘rigorous, and
11. The Terms of Service include a choice of law provision
selecting for California law. See Schell Declr. Ex. A § 21.2. That
provision applies to “Covered Dispute Matters,” which is defined
to include “any dispute that has arisen or may arise between us
relating in any way to Your use of or access to [Grindr], . . . , or
otherwise relating to Grindr in any way.” Schell Declr. Ex. A.
§ 21.1. Nonetheless, both parties cite and apply New York law and
the Court will do the same. See Star Ins. Co. v. A&J Constr. of
N.Y., Inc., No. 15-CV-8789 (CS), 2017 U.S. Dist. LEXIS 211081,
2017 WL 6568061, at *4 (S.D.N.Y. Dec. 22, 2017) (“[E]ven when
the parties include a choice-of-law clause in their contract, their
conduct during litigation may indicate assent to the application of
another state’s law.” (quoting Cargill, Inc. v. Charles Kowsky Res.,
Inc., 949 F.2d 51, 55 (2d Cir. 1991))). The Court notes, however,
that the elements of certain of Herrick’s causes of action differ
meaningfully under California law, and it is at least curious that
neither party saw fit to raise this issue. The Terms of Service also
include an arbitration provision that is potentially applicable to
Herrick’s claims. See Schell Declr. Ex. A § 21.3.

37a
Appendix B
difficult to satisfy,’” Taggart v. Costabile, 131 A.D.3d 243,
14 N.Y.S.3d 388, 394 (2d Dep’t 2015) (quoting W. Page
Keeton et al., Prosser and K eeton on the Law of Torts
§ 12 at 61 (5th ed. 1984)), and Herrick has not met this
high bar. While the creation of the impersonating profiles
may be sufficiently extreme and outrageous, Grindr did
not create the profiles. See supra at 9-11. “Ordinarily,
the failure to respond appropriately to complaints of
harassment, on its own, will not be sufficiently egregious
— ‘outrageous’ — to amount to intentional infliction of
emotional distress under New York law.” Turley v. ISG
Lackawanna, Inc., 774 F.3d 140, 161 (2d Cir. 2014); see
also Taggart, 14 N.Y.S.3d at 394 (landlord’s failure to
prevent a tenant from burglarizing other tenants is not
sufficiently extreme and outrageous). For example, in
Turley, the defendant, in addition to ignoring ongoing
harassment, actively impeded investigations into the
harassment and appeared to encourage it further. 774
F.3d at 161. Grindr’s role in the impersonating profiles
is not equivalent. Grindr’s involvement is limited to
“neutral assistance” — which it provides to all users —
and its failure to affirmatively intervene and stop the
impersonating profiles. Additionally, Grindr’s conduct was
not lacking in any reasonable justification. See Martin
v. Citibank, N.A., 762 F.2d 212, 220 (2d Cir. 1985) (“The
conduct must also be intentionally directed at the plaintiff
and lack any reasonable justification.”). Even assuming
Section 230 did not apply, Grindr had a good faith and
reasonable basis to believe (correctly, it turns out) that
it was under no obligation to search for and remove the
impersonating profiles. The Court finds that Herrick has
not plausibly alleged sufficiently outrageous and extreme

38a
Appendix B
behavior by Grindr to constitute intentional infliction of
emotional distress.12
3. Fraud, Negligent Misrepresentation, Promissory
Estoppel, and Deceptive Practices
Next are Herrick’s misrepresentation claims.
Although Herrick alleges separate claims for promissory
estoppel, fraud, negligent misrepresentation, deceptive
practices, and false advertising, these claims share a
common theory that Grindr misled Herrick (as a user)
into believing it had a system in place to monitor for
impermissible content and the tools to remove such
content. Grindr moves to dismiss on the grounds that the
CDA bars these claims and that Herrick has not alleged
the essential elements of any of these causes of action. The
Court need not decide whether the CDA applies to claims
based on Grindr’s own statements because each of these
claims is inadequately pleaded.13
12. “Extreme and outrageous” conduct is not a necessary
element of a claim for negligent infliction of emotional distress.
See Abdel-Karim v. EgyptAir Airlines, 116 F. Supp. 3d 389, 411
(S.D.N.Y. 2015). Rather, negligent infliction of emotional distress
requires a showing of a duty owed to the plaintiff, negligence
resulting directly in emotional harm, and a showing the claim
possesses “some guarantee of genuineness.” Id. (quoting Taggart,
14 N.Y.S.3d at 396). The duty owed must be specific to the plaintiff.
Id. The Court need not address whether these elements are
satisfied because the duty Herrick seeks to impose is barred by
the CDA. See supra at 16-17.
13. The parties do not address application of the CDA to
these causes of action specifically. In Barnes, the Ninth Circuit

39a
Appendix B
Fraud
Fraud has five elements. A plaintiff must allege:
“(1) a misrepresentation or omission of material fact;
(2) which the defendant knew to be false; (3) which the
defendant made with the intention of inducing reliance; (4)
upon which the plaintiff reasonably relied; and (5) which
caused injury to the plaintiff.” Wynn v. AC Rochester,
273 F.3d 153, 156 (2d Cir. 2001). Unlike Herrick’s other
causes of action, fraud claims must be pleaded with the
particularity required by Rule 9(b) of the Federal Rules of
Civil Procedure. To plead the circumstances constituting
fraud with particularity, the complaint must “(1) specify
the statements that the plaintiff contends were fraudulent,
(2) identify the speaker, (3) state where and when the
statements were made, and (4) explain why the statements
were fraudulent.” Lerner v. Fleet Bank, N.A., 459 F.3d
273, 290 (2d Cir. 2006) (quoting Mills v. Polar Molecular
Corp., 12 F.3d 1170, 1175 (2d Cir. 1993)).
concluded that Section 230(c) did not bar a promissory estoppel
claim based on the defendant’s own statements. See Barnes, 570
F.3d at 1108-09. To the extent liability is premised on Grindr’s own
statements, Herrick’s misrepresentation claims are directed at
Grindr’s own content, at least in part. Additionally, these claims
do not clearly implicate Grindr’s actions as a publisher of usergenerated content. The duty allegedly violated is the duty to speak
candidly to one’s customers — not to edit and remove content. On
the other hand, the statements at issue describe Grindr’s conduct
and policies as a publisher and the ultimate injury in this case
remains associated with user-generated content. The statements
are false, according to Herrick, because Grindr does not police
and remove content. The Court need not resolve this issue because
the claims fail on their merits.

40a
Appendix B
The Amended Complaint identifies two sets of
potentially misleading statements. “At all relevant times,”
Grindr’s community values page has stated that it has a
“system of digital and human screening tools to protect
our users from actions and behaviors that endanger them
and go against what we’re about.” Am. Compl. ¶¶ 40, 41.
The Amended Complaint also quotes from the Terms
of Service, which warn users that their content may be
deleted and their accounts may be disabled if they violate
Grindr’s guidelines or the Terms of Service. Am. Compl.
¶ 42. The Court understands Herrick’s theory to be that
these statements are false because they are implicit
representations that Grindr “will take a hard line against
anyone who uses Grindr’s products in abusive ways,” when,
in fact, Grindr makes “little to no effort to screen and
monitor the activities of its members or to ban abusive
accounts.” Am. Compl. ¶¶ 43-44; see also Opp’n at 31 (the
Terms of Service “work to provide users with . . . material
representations that Grindr is safe. . . . In fact, Grindr,
. . . , has no way of enforcing these provisions . . . .”).
The Terms of Service and community values page do
not say what Herrick alleges they say. The community
values page represents that Grindr has tools to protect
users from dangerous “actions and behaviors.” It does
not represent or imply that Grindr will take a “hard
line” against users who post illicit content. The Terms of
Service are similar. They reserve Grindr’s right to remove
illicit content, but they do not represent that Grindr will
do so. Put differently, Grindr does not warrant that it will
remove illicit content; instead, it merely represents that it
may do so. See Am. Compl. ¶ 42; cf. Caraccioli v. Facebook,

41a
Appendix B
Inc., 167 F. Supp. 3d 1056, 1064 (N.D. Cal. 2016) (rejecting
a similar argument that Facebook’s terms of service
amount to a representation that it will monitor third party
content and explaining that the relevant terms of service
are intended to impose an obligation on the user, not
Facebook). The other provisions of the Terms of Service
identified in the Amended Complaint are agreements by
users (not Grindr) to refrain from posting impermissible
content. Almost all of these statements begins with the
prefatory clause “You will NOT.” Am. Compl. ¶ 42; see e.g.
id. (“You will NOT impersonate any person or entity . . . .”).
Other provisions of the Terms of Service are also directly
at odds with Herrick’s theory. Section 10.4, for example,
states that “Grindr has the right, but does not have any
obligation, to monitor [user] content for any purpose.”
Terms of Service § 10.4. Section 12.4 provides that “Grindr
assumes no responsibility for actively monitoring User
Content for inappropriate content.” Terms of Service
§ 12.4; see also id. (“Grindr does not endorse and has no
control over the content of User Content submitted by
other Users.”). Given those disclaimers, it is not plausible
that a reasonable person could conclude from the Terms
of Service and community values page that Grindr has
made any representation regarding its commitment to
remove improper content.
For similar reasons, the Court finds that Herrick
has not plausibly alleged reasonable reliance on Grindr’s
alleged misstatements. Reliance is unreasonable
as a matter of law where the alleged inference or
misrepresentation is contradicted directly by another
statement by the defendant. See Dovitz v. Rare Medium

42a
Appendix B
Grp., Inc., No. 01-CV-10196 (LLS), 2003 U.S. Dist. LEXIS
3469, 2003 WL 1057426, at *3 (S.D.N.Y. Mar. 10, 2003)
(citing Bonacci v. Lone Star Int’l Energy, Inc., No. 98CV-0634 (HB), 1999 U.S. Dist. LEXIS 1564, 1999 WL
76942, at *2 (S.D.N.Y. Feb. 16, 1999)). A closely related
principle is that reliance on an inference drawn from one
document is unreasonable when it contradicts a more
specific representation in another document. See Sable
v. Southmark/Envicon Capital Corp., 819 F. Supp. 324,
334 (S.D.N.Y. 1993). Sections 10.4 and 12.4 of the Terms
of Service state explicitly that Grindr is not committing to
monitor or remove content posted by users. See Terms of
Service §§ 10.4 (“Grindr has the right, but does not have
any obligation, to monitor [user] content for any purpose.”),
12.4 (“Grindr assumes no responsibility for actively
monitoring User Content for inappropriate content.
. . . Grindr does not endorse and has no control over the
content of User Content submitted by other Users.”). In
light of these clear warnings, it was unreasonable for
Herrick to rely on the Terms of Service to conclude that
Grindr would take a “hard line” against illicit content.
See Am. Compl. ¶¶ 43-44. This is particularly true
because the disclaimers are far more specific than the
statements in the Terms of Service upon which Herrick
relies, and they address specifically Grindr’s disavowal of
any responsibility to monitor and block content. Terms of
Service §§ 10.4, 12.4. The community values page is also
too general to be reasonably relied upon. See Ashland
Inc. v. Morgan Stanley & Co., Inc., 700 F. Supp. 2d 453,
471 (S.D.N.Y. 2010) (reliance on vague and indefinite
assurances is unreasonable). The community values page
does not specify what it means to have a “system of digital

43a
Appendix B
and human screening tools in place,” or what “actions and
behaviors” the system protects against. It simply cannot
be read to represent that Grindr’s tools are effective at
blocking “improper” content.
The Amended Complaint also fails to allege that
Herrick’s injuries were proximately caused by Grindr’s
alleged misstatements. A misstatement is a proximate
cause of an injury if the “injury ‘is the natural and
probable consequence of the [] misrepresentation or . . .
the defrauder ought reasonably to have foreseen that the
injury was a probable consequence of his fraud.’” King
Cty., Wash. v. IKB Deutsche Industriebank AG, 916 F.
Supp. 2d 442, 447 (S.D.N.Y. 2013) (quoting Suez Equity
Inv’r, L.P. v. Toronto-Dominion Bank, 250 F.3d 87, 10405 (2d Cir. 2001)) (additional citations omitted). “Many
considerations enter into the proximate cause inquiry
including the foreseeability of the particular injury, the
intervention of other independent causes, and the factual
directness of the causal connection.” Glidepath Holding
B.V. v. Spherion Corp., 590 F. Supp. 2d 435, 457-58
(S.D.N.Y. 2007) (quoting First Nationwide Bank v. Gelt
Funding Corp., 27 F.3d 763, 769 (2d Cir. 1994)) (additional
citations omitted and internal quotation marks).
Herrick’s injury has only an attenuated connection
to his use of the Grindr app and agreement to the Terms
of Service. According to Herrick he joined Grindr in
2011 in reliance on the Terms of Service and community
values page; some four years later, in 2015, he met his
former boyfriend and de-activated his Grindr account;
one year later, in 2016, and after they broke up, his

44a
Appendix B
former boyfriend began using Grindr to terrorize him.
Am. Compl. ¶¶ 48-49. Thus, although Herrick alleges that
Grindr’s misstatements caused him to join Grindr, he has
not been a Grindr user at any point since 2015, including
during the events giving rise to this lawsuit. As the facts
of this case illustrate, one does not need to be a Grindr
user to be impersonated on Grindr; what happened to
Herrick could, unfortunately, have happened to him even if
he never saw the Terms of Service and never used Grindr.
At best (for Herrick), his decision to join Grindr in 2011 in
reliance on the Terms of Service is a “but-for” cause of his
injuries — had he not joined Grindr, Herrick would never
have met his former boyfriend — but the Terms of Service
and community values page have no other connection to
the harassment directed at Herrick in 2016 and 2017.
Herrick has essentially conceded this point. His brief
addresses proximate causation relative to his negligence
claims, i.e. his claim that Grindr’s features contribute
to the impersonating profiles but addresses proximate
causation relative to his misrepresentation claims only in
passing. Compare Opp’n at 25-26 (arguing that Herrick’s
injury is a proximate result of Grindr’s negligent design
of the app), with Opp’n at 36 (arguing that causation is
adequately alleged as to Herrick’s deceptive practices
claim by reference to sections of the opposition that do
not discuss proximate causation). Assuming Herrick
intended his negligence arguments to apply to his
misrepresentation claims, his analogy is unavailing. There
is a critical difference between Grindr’s design of the app
and decision not to monitor and remove user-generated
content in 2016 and 2017 (which bears directly on Herrick’s

45a
Appendix B
injury, but is protected by the CDA) and Grindr’s long
ago, alleged misstatements relative to Herrick’s decision
to use the Grindr app in the first place.
In sum, the Court finds that Herrick has not plausibly
alleged a misstatement, reasonable reliance on that
misstatement, or that Grindr’s misstatements are a
proximate cause of his injury.
Promissory Estoppel
Herrick’s promissory estoppel claim fails because he
has not alleged a sufficiently unambiguous promise by
Grindr. There are three elements of a claim for promissory
estoppel: “(1) a promise that is sufficiently clear and
unambiguous; (2) reasonable reliance on the promise by
a party; and (3) injury caused by the reliance.” Kortright
Capital Partners LP v. Investcorp Inv. Advisers Ltd.,
257 F. Supp. 3d 348, 360-61 (S.D.N.Y. 2017) (quoting
MatlinPatterson ATA Holdings LLC v. Fed. Express
Corp., 87 A.D.3d 836, 929 N.Y.S.2d 571, 577 (1st Dep’t
2011)). Promissory estoppel is “a narrow doctrine which
generally only applies where there is no written contract,
or where the parties’ written contract is unenforceable
for some reason.” Paxi, LLC v. Shiseido Ams. Corp., 636
F. Supp. 2d 275, 287 (S.D.N.Y. 2009) (quoting DDCLAB
Ltd. v. E.I. DuPont De Nemours and Co., No. 03-CV-3654
(GBD), 2005 U.S. Dist. LEXIS 2721, 2005 WL 425495, at
*6 (S.D.N.Y. Feb. 18, 2005)).
Herrick contends that the community values page
and Terms of Service constitute a promise to monitor

46a
Appendix B
and remove content. See Am. Compl. ¶ 157 (“Plaintiff and
Grindr entered a [sic] clear and unambiguous promise
when Plaintiff signed up to use the software products.”).
For the same reasons that Grindr’s statements are not
false or misleading, they also do not constitute a “clear
and unambiguous promise” to search for and remove
offensive content. Cf. Green v. Am. Online (AOL), 318 F.3d
465, 472 (3d Cir. 2003) (rejecting argument that AOL’s
terms of service amounted to a promise to police offensive
content). Herrick’s reliance on Grindr’s statements was
also unreasonable in light of the clear disclaimer in the
Terms of Service of any obligation to police user content.
See supra at 21-22; Terms of Service §§ 10.4, 12.4; see also
Prestige Foods, Inc. v. Whale Sec. Co., L.P., 243 A.D.2d 281,
663 N.Y.S.2d 14, 15 (1st Dep’t 1997) (Promissory estoppel
claim was “properly dismissed as ‘flatly contradicted’ by
the letter agreements in issue . . . .”).
Negligent Misrepresentation
“To allege a claim for negligent misrepresentation a
plaintiff must assert ‘(1) the defendant had a duty, as a
result of a special relationship, to give correct information;
(2) the defendant made a false representation that he or
she should have known was incorrect; (3) the information
supplied in the representation was known by the defendant
to be desired by the plaintiff for a serious purpose; (4)
the plaintiff intended to rely and act upon it; and (5) the
plaintiff reasonably relied on it to his or her detriment.’”
Eidelman v. Sun Prods. Corp., No. 16-CV-3914 (NSR),
2017 U.S. Dist. LEXIS 156420, 2017 WL 4277187, at
*4 (S.D.N.Y. Sept. 25, 2017) (quoting Anschutz Corp. v.

47a
Appendix B
Merrill Lynch & Co., 690 F.3d 98, 114 (2d Cir. 2012)).
Proximate causation is an element of a claim for negligent
misrepresentation. See Laub v. Faessel, 297 A.D.2d 28,
745 N.Y.S.2d 534, 536 (1st Dep’t 2002). For the reasons
already given, Herrick has not adequately alleged a false
or misleading statement, that his reliance was reasonable
in the face of Grindr’s more specific disclaimers of a
duty to monitor user content, or that Grindr’s alleged
misrepresentations were a proximate cause of his injury.
The Amended Complaint also fails to allege a sufficient
“special relationship.” There are three factors relevant
to whether a special relationship exists: whether the
defendants “held or appeared to hold unique or special
expertise,” whether there is a special relationship of “trust
or confidence,” and whether there are allegations that the
“speaker was aware of the use to which the information
would be put and supplied it for that purpose.” Izquierdo v.
Mondelez Int’l Inc., No. 16-CV-4697 (CM), 2016 U.S. Dist.
LEXIS 149795, 2016 WL 6459832, at *8 (S.D.N.Y. Oct. 26,
2016). Herrick does not claim a special relationship of trust
or confidence and the relationship between the parties
was typical of an arm’s length transaction. See Beckman
v. Match.com, LLC, No. 13-CV-97 JCM, 2017 U.S. Dist.
LEXIS 35562, 2017 WL 1304288, at *3-4 (D. Nev. Mar. 10,
2017) (applying Nevada law and holding there is no special
relationship between Match.com and its users); see also
Henneberry v. Sumitomo Corp. of Am., 532 F. Supp. 2d
523, 539 (S.D.N.Y. 2007) (“Courts have routinely held that
an arms-length commercial transaction, without more,
does not give rise to a special duty to speak with care.”).
Where New York courts have found a representation of
special expertise, they have done so based on detailed

48a
Appendix B
statements or professional expertise. See e.g., Eidelman,
2017 U.S. Dist. LEXIS 156420, 2017 WL 4277187, at *5
(representations that dermatologists recommended a
product and that it was “clinically proven” suggest special
expertise); Fallman v. Hotel Insider Ltd., No. 14-CV-10140
(SAS), 2016 U.S. Dist. LEXIS 5895, 2016 WL 316378,
at *9 (S.D.N.Y. Jan. 15, 2016) (“This standard has been
applied to professionals such as lawyers and doctors,
and technical experts such as engineers.”). The fact that
Grindr has knowledge of its own internal monitoring
practices is not enough to establish special expertise.
See KCG Am. LLC v. Brazilmed, LLC, No. 15-CV-4600
(AT), 2016 U.S. Dist. LEXIS 30497, 2016 WL 900396,
at *7 (S.D.N.Y. Feb. 26, 2016) (“Allegations that a party
has ‘superior knowledge about the particulars of his own
business practices is insufficient to sustain’ a negligent
misrepresentation claim.” (quoting MBIA Ins. Corp.
v. Countrywide Home Loans, Inc., 87 A.D.3d 287, 928
N.Y.S.2d 229, 235-36 (1st Dep’t 2011))). Additionally, there
are no factual allegations in the Amended Complaint to
suggest Grindr was aware that Herrick intended to rely on
the community values page or the Terms of Service. The
disclaimers in the Terms of Service suggest the opposite;
that any representation of an ability to police and monitor
content should not be relied upon. See Terms of Service
§§ 10.4, 12.4. In short, the Court finds that Herrick has
not sufficiently alleged a “special relationship.”
Deceptive Practices and False Advertising
Herrick’s deceptive business practices and false
advertising claims fail because he has not plausibly
alleged that a reasonable consumer would be misled by

49a
Appendix B
Grindr’s statements. See Merck Eprova AG v. BrookStone
Pharms., LLC, 920 F. Supp. 2d 404, 425 (S.D.N.Y. 2013) (to
allege a deceptive business practice under Section 349 of
New York’s General Business Law, a plaintiff must allege:
“first, that the challenged act or practice was consumeroriented; second, that it was misleading in a material way;
and third, that the plaintiff suffered injury as a result of
the deceptive act.” (quoting Stutman v. Chem. Bank, 95
N.Y.2d 24, 29, 731 N.E.2d 608, 709 N.Y.S.2d 892 (2000))).
Herrick’s false advertising claim fails for the additional
reason that he has not alleged reasonable reliance. See
Leider v. Ralfe, 387 F. Supp. 2d 283, 292 (S.D.N.Y. 2005)
(elements of false advertising under General Business
Law Section 350 are the same as under Section 349, but
plaintiff must also allege reliance).14
4. Copyright Infringement
Last is Herrick’s claim for copyright infringement.
The Amended Complaint alleges that some of the
impersonating profiles use photos of Herrick for which he
has filed copyright registration applications. Am. Compl.
¶¶ 147, 150. This claim is inadequately pleaded. In order
14. The New York Court of Appeals has not decided whether
proximate cause is an element of a deceptive practices claim under
General Business Law § 349 or a false advertising claim under
General Business Law § 350. See Blue Cross and Blue Shield
of N.J., Inc. v. Philip Morris USA Inc., 3 N.Y.3d 200, 207, 818
N.E.2d 1140, 785 N.Y.S.2d 399 (2004). Because Herrick’s deceptive
practices and false advertising claims fail for other reasons,
the Court need not address whether he has adequately alleged
causation for purposes of Section 349.

50a
Appendix B
to plead copyright infringement a plaintiff must allege
“1) which specific original works are the subject of the
copyright claim, 2) that plaintiff owns the copyrights in
those works, 3) that the copyrights have been registered
in accordance with the statute, and 4) by what acts
during what time the defendant infringed the copyright.”
Zuma Press, Inc. v. Getty Images (US), Inc., No. 16-CV6110 (AKH), 2017 U.S. Dist. LEXIS 101286, 2017 WL
2829517, at *2 (S.D.N.Y. June 29, 2017) (quoting Kelly v.
L.L. Cool J., 145 F.R.D. 32, 36 (S.D.N.Y. 1992)). Herrick
has filed four applications for registration of copyrights,
but he concedes that the Copyright Office has not acted
upon his applications. See Opp’n at 42 (arguing that
“[a]llow ing Plaintiff ’s claims to proceed pending
registration will best serve the principles of copyright
law”). There is an “‘overwhelming’ consensus in the
Southern District of New York that under the registration
approach, a pending ‘application for copyright registration
cannot sustain a claim for infringement prior to its approval
or rejection by the Copyright Office.’” Zuma Press, Inc.,
2017 U.S. Dist. LEXIS 101286, 2017 WL 2829517, at
*4 (quoting Christians of Cal., Inc. v. Clive Christian
N.Y., LLP, No. 13-CV-0275 (KBF)(JCF), 2014 U.S. Dist.
LEXIS 77067, 2014 WL 2465273, at *4 n.1 (S.D.N.Y. May
30, 2014)). Under the circumstances, the proper course is
to dismiss Herrick’s complaint without prejudice so that
he can amend and allege that the Copyright Office has
either granted or denied his applications. See LLM Bar
Exam, LLC v. Barbri, Inc., No. 16-CV-3770 (KPF), 271
F. Supp. 3d 547, 2017 U.S. Dist. LEXIS 156411, 2017 WL
4280952, at *31 (S.D.N.Y. Sept. 25, 2017) (“[c]ourts within
this Circuit have consistently held that failing to meet a

51a
Appendix B
statutory precondition to suit precludes adjudication on
the merits and warrants dismissal without prejudice.”15
(quoting Senisi v. John Wiley & Sons, Inc., No. 13-CV-3314
(LTS), 2016 U.S. Dist. LEXIS 33338, 2016 WL 1045560,
at *3 (S.D.N.Y. Mar. 15, 2016))).
5. Leave to Amend
This is Herrick’s second attempt to state a claim
against Grindr, and he has not attached a proposed second
amended complaint. Under the circumstances, Herrick’s
bare request for leave to amend is inadequate. See Gazzola
v. Cty. of Nassau, No. 16-CV-0909 (ADS), 2016 U.S. Dist.
LEXIS 142566, 2016 WL 6068138, at *9 (E.D.N.Y. Oct. 13,
2016) (“Courts have held that a ‘bare request to amend a
pleading’ contained in a brief, which does not also attach
the proposed amended pleading, is improper under [Rule]
15.”); see also Copeland ex. rel. NBTY, Inc. v. Rudolph, 160
F. App’x 56, 59 (2d Cir. 2005) (conclusory requests for leave
to amend are insufficient under Rule 15). Accordingly,
with the exception of Herrick’s copyright claim, the Court
DENIES leave to amend.
15. Herrick has not responded to Grindr’s other arguments
that his copyright claim fails because he has not alleged a theory
of infringement against Grindr or when and how Grindr infringed
his copyrights. See Reply Br. (Dkt. 58) at 15 (noting Herrick’s
failure to respond). Websites and social networking sites are not
liable per se for infringing content posted by their users. See BWP
Media USA Inc. v. Hollywood Fan Sites, LLC, 69 F. Supp. 3d
342, 354 (S.D.N.Y. 2014) (“The fact that Defendants own the sites,
standing alone, does not create copyright liability for the actions
of third parties.”). Herrick is forewarned that any amendment to
his copyright claims must address these deficiencies.

52a
Appendix B
CONCLUSION
With the exception of Herrick’s seventh cause of action
for copyright infringement, the Defendants’ motions
to dismiss pursuant to Rule 12(b)(6) are GRANTED
WITH PREJUDICE. The Defendants’ motions to
dismiss Herrick’s claim for copyright infringement are
GRANTED WITHOUT PREJUDICE. To the extent
Herrick wishes to file an amended complaint, curing the
deficiencies in his copyright claim, he must file a motion
for leave to amend by January 31, 2018.
The Clerk of the Court is directed to close the open
motions at docket entries 41, 47, and 60.
SO ORDERED.
Date: January 25, 2018
	New York, New York
/s/ Valerie Caproni
VALERIE CAPRONI
United States District Judge

53a
APPENDIX C —Appendix
DENIAL COF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED MAY 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of
New York, on the 9th day of May, two thousand nineteen.
ORDER
Docket No: 18-396
MATTHEW HERRICK,
Plaintiff-Appellant,
v.
GRINDR LLC, KL GRINDR HOLDINGS INC.,
GRINDR HOLDING COMPANY,
Defendants-Appellees.
Appellant, Matthew Herrick, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the
Court have considered the request for rehearing en banc.

54a
Appendix C
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

